    




ANNUAL FINANCIAL STATEMENT
AUDITS:
Observations for Improving Oversight of the Independent
Public Accountant




   	
   	
                         Report No. OIG-A-2012-017 | September 27, 2012
   	
   	
   	
   	
   	
   	
   	
    
    
    
    
 



    NATIONAL RAILROAD
    PASSENGER CORPORATION 
                                                 The Inspector General


Memorandum
 
To:      Anthony Coscia, Chairman, Audit and Finance Committee,  
              Amtrak Board of Directors 
         Gordon Hutchinson, Acting Chief Financial Officer and Controller 

From:    Ted Alves                            
 
Date:    September 27, 2012

Subject: Annual Financial Statement Audits: Observations for Improving Oversight of the 
         Independent Public Accountant (Report No. OIG‐A‐2012‐017) 
 
Fiscal year 2011 represented the first year of Office of Inspector General (OIG) 
monitoring of Amtrak’s and the independent public accountant’s (IPA) performance 
regarding the annual financial statement and compliance audits. This report provides 
the results of our work. Effective oversight of the IPA and the audit process can help 
ensure a high‐quality audit and the efficient and effective use of company resources. 
High‐quality audits can result in recommendations for immediate improvements in the 
company’s financial accounting systems and internal controls, increase accountability 
over company programs, provide timely and accurate reporting of noncompliance with 
laws and regulations, and ensure the reliability of financial records and reports used by 
the Congress, the Amtrak Board of Directors, and federal funding agencies in making 
funding and administrative decisions affecting Amtrak operations. Long‐term 
improvements can also aid public confidence in the company.  

During the course of the audit, the OIG brought items to the Audit and Finance 
Committee’s and management’s attention concerning best practices for overseeing the 
work of the IPA. In March of this year we provided management with our observations 
on best practices that could improve the IPA contract solicitation documents and IPA‐
specific procurement guidance. This report adds our observations and information on 
best practices in the areas of contract administration and audit facilitation. Further, in 
May we provided the Chairman of the Audit and Finance Committee with information 
on best practices regarding oversight of the IPA for the Audit and Finance Committee’s 
                                                                                           2 

                               Amtrak Office of Inspector General
                                Annual Financial Statement Audits:
             Observations for Improving Oversight of the Independent Public Accountant
                      Report No. OIG-A-2012-017, September 27, 2012


consideration. The detailed results of our work are presented in Appendices II, III, and 
IV of this report, and are summarized below. 

Our objectives were to (1) gain an understanding of the company’s contract solicitation, 
administration, facilitation, and oversight activities as they relate to the IPA; and (2) 
identify best practices for the Audit and Finance Committee’s and management’s 
consideration in overseeing the IPA and the audit process. For a discussion of our scope 
and methodology, see Appendix I. 


SUMMARY OF RESULTS
Management Best Practices
While management carried out its responsibilities for overseeing the audit process in a 
generally effective manner, we identified opportunities for improvement in the 
following areas as they relate to the IPA: (1) contract solicitation documents, (2) 
proposal evaluation, (3) contract administration, (4) audit facilitation, and (5) specific 
procurement guidance. As our work progressed, we shared our best practices 
suggestions with management, which has already implemented or is in the process of 
implementing many of them. The following sections summarize best practices for each 
of the five areas.  

(1) Contract Solicitation Documents. Our review of contract solicitation documents 
provided to offerors on April 27, 2012, showed that management fully incorporated the 
best practices information we provided in March 2012, while preparing to re‐compete 
the IPA contract. Management’s actions to implement the best practices for the IPA 
contract solicitation documents are summarized below, including the Request for 
Proposal—Instructions to Offerors (RFP), Statement of Work (SOW), and contract 
provisions. 

   The RFP was enhanced by requiring offerors to provide information such as the 
    relevant experience of the office performing the audit, professional references for 
    key personnel, use of technical experts, and information on subcontractors’ 
    qualifications and independence. These data would provide management with 
    information needed to evaluate offerors’ qualifications and ability to perform all 
    required audit services.  


 
                                                                                           3 

                               Amtrak Office of Inspector General
                                Annual Financial Statement Audits:
             Observations for Improving Oversight of the Independent Public Accountant
                      Report No. OIG-A-2012-017, September 27, 2012


   The SOW was augmented to provide information on the complexity and risks of the 
    company and on management’s expectations of the contractor, including 
    deliverables and timelines that would better ensure acceptable audit progress. 

   Contract provisions were revised to remove impairments to the IPA’s independence. 
    Prior to revision, contract provisions provided management with the ability to (1) 
    dictate who would perform audit procedures by removing any member of the IPA 
    audit team at any time for any reason; (2) interfere with the IPA selection or 
    application of audit procedures, thus impairing the integrity of the current and 
    future‐year audits; and (3) negotiate with the IPA to obtain a favorable audit 
    opinion.  

(2) Proposal Evaluation. Based on best practices information we provided to Amtrak in 
March 2012, management developed steps to implement best practices related to 
proposal evaluations. Our discussions with management and review of preliminary 
documents indicate that Amtrak took steps to implement best practices related to pre‐
screening proposals, defining evaluation criteria and providing evaluation guidance, 
holding oral presentations, and benchmarking audit fees. The following section 
summarizes the best practices identified in the proposal evaluation area. 

   Technical evaluations could be improved in the areas of pre‐screening offerors, 
    defining evaluation criteria and providing evaluation guidance, oral presentations, 
    and evaluating subcontractors. Specific best practices include: 

    o pre‐screening proposals to ensure that only offerors meeting minimum standards 
      are subject to detailed evaluation;  

    o defining evaluation criteria in writing and providing guidance to the evaluation 
      team to assist it in applying technical evaluation criteria to proposals; 

    o requiring the most technically qualified offerors to make oral presentations to the 
      evaluation team or the Audit and Finance Committee, to provide a further basis 
      on which to assess offerors’ key personnel assigned to the engagement and 
      provide the offerors an opportunity to differentiate themselves from other 
      offerors; and 

                              



 
                                                                                                       4 

                                             Amtrak Office of Inspector General
                                              Annual Financial Statement Audits:
                           Observations for Improving Oversight of the Independent Public Accountant
                                    Report No. OIG-A-2012-017, September 27, 2012


       o improving subcontractor evaluations by reviewing their qualifications and 
         independence. Best practices suggest that subcontractors conducting substantive 
         work, such as the audit of Passenger Railroad Insurance, Limited,1 should be 
         evaluated against the same criteria used to evaluate the prime contractor.  

      Price evaluations could be improved by benchmarking the proposed audit fees 
       against the current market price for audits of companies of comparable size and 
       complexity to determine the competitive range. Proposers providing an 
       unrealistically low or high bid may reflect a lack of understanding of the audit 
       requirements, which could result in additional audit fees later or could put 
       significant pressure on the auditor when determining an appropriate audit scope for 
       adequately addressing the higher risk areas. 

(3) Contract Administration. Based on our discussions with management throughout 
the fiscal year 2011 audit process, the company has taken steps to implement best 
practices related to contract administration. For example, best practices included in the 
SOW for the IPA solicitation will enable management to hold the contractor accountable 
for meeting specific progress milestones and due dates for deliverables. We identified 
additional best practices in the contract administration areas of identifying and 
resolving problems promptly, training for the contracting official’s technical 
representative (COTR) and task monitor, and ensuring consistency in applying the 
contract administration process.  

      Identifying and resolving problems concerning IPA compliance with contract terms and 
       meeting performance expectations could be improved. This can be accomplished by 
       developing a clear understanding among the contracting official (CO), COTR, and 
       task monitor on how they will work together and, further, ensuring that any 
       potential or actual problems with the contractor’s performance, changes in the scope 
       of work, or noncompliance with contract terms are communicated to the CO to 
       develop an action plan for addressing the situation and promptly communicating it 
       to the contractor. Another best practice is for the CO to hold periodic meetings with 
       the responsible contractor representative, COTR, and task monitor, to discuss the 
       contractorʹs performance and other matters of concern. Additionally, maintaining a 

                                                            
 Passenger Railroad Insurance, Limited, a wholly‐owned subsidiary of Amtrak, incorporated in 1996 
1

under the laws of Bermuda to provide excess liability and property insurance coverage to Amtrak. 


 
                                                                                           5 

                               Amtrak Office of Inspector General
                                Annual Financial Statement Audits:
             Observations for Improving Oversight of the Independent Public Accountant
                      Report No. OIG-A-2012-017, September 27, 2012


    separate COTR file of the contractor’s job progress and problems as they occur 
    would be helpful in resolving issues with the contractor’s performance. 

   Providing the COTR and task monitor with training specific to managing contracts 
    would strengthen the contract administration process. This specialized training 
    would help ensure that the COTR and task monitor are properly prepared and 
    understand their roles, responsibilities, and authority for managing the technical 
    performance of a contract. According to management, Amtrak procurement officials 
    provided the task monitor with an overview of COTR roles and responsibilities; 
    however, formal COTR training would increase the likelihood that the COTR and 
    task monitor will monitor contracts reliably by giving these officials appropriate 
    background knowledge related to contracts. 

   Developing a contract administration plan helps ensure consistency in understanding 
    and applying the contract administration process, and is a roadmap for ensuring 
    that contactors comply with contract terms and performance expectations. Such a 
    plan would also add assurance that any problems are identified and resolved 
    promptly. A contract administration plan frames the who, what, when, where, and 
    how of the contract.  

(4) Audit Facilitation. According to management, the company has fully implemented 
or has taken steps to implement the best practices we recommended related to audit 
facilitation. For example, Amtrak implemented our recommendation to utilize 
SharePoint to manage document requests from the IPA, and best practices included in 
the SOW will strengthen the structure of weekly status meetings and require the IPA to 
issue notices of findings and recommendations throughout the audit. We identified best 
practices for improvement in audit facilitation in the areas of managing the IPA’s 
requests for information (prepared by client–PBC–documents), strengthening the 
structure of weekly status meetings, using notices of findings and recommendations, 
and holding lessons‐learned meetings. A summary of the best practices in these areas 
follows. 

   Managing the IPA’s PBC requests was improved by utilizing the SharePoint 
    application to house and track information provided to the contractor. Management 
    implemented this recommendation early in the FY 2011 audit process and plans to 
    continue to use SharePoint to manage PBC requests for the FY 2012 audits.  



 
                                                                                             6 

                               Amtrak Office of Inspector General
                                Annual Financial Statement Audits:
             Observations for Improving Oversight of the Independent Public Accountant
                      Report No. OIG-A-2012-017, September 27, 2012


   Restructuring the weekly audit status meetings between the IPA and Amtrak staff could 
    strengthen two‐way communication between management and the contractor to 
    focus on audit progress, audit issues, delays in PBC requests, and difficulties 
    encountered by the audit team. The company could also use these meetings to keep 
    the contractor abreast of significant activities, changes in company leadership, and 
    issues that may affect the audit process, such as turnover of key company executives 
    or significant new company initiatives and transactions. 

   Using written notices of findings and recommendations issued by the contractor during 
    the audit would help facilitate the prompt resolution of any disagreements with the 
    facts or recommended corrective actions, and allow management time to understand 
    the issues and determine whether the auditors have all relevant information. 

   Conducting lessons‐learned meetings could enhance the efficiency and effectiveness of 
    future years’ audits by identifying areas for improvement in the past year’s audit 
    process so issues could be appropriately addressed prior to the next year’s audit. 

(5) IPA‐Specific Procurement Guidance. In March 2012 we provided management and 
the Audit and Finance Committee with best practice information to strengthen 
Amtrak’s policies and procedures for acquiring and overseeing external independent 
audit services by incorporating specific considerations and requirements necessary to 
meet professional auditing standards and obtain a high‐quality audit. Specifically, 
Amtrak’s policies and procedures for acquiring IPA services do not include 
requirements for the CO or COTR to pre‐screen offerors, verify prime and subcontractor 
independence and qualifications, evaluate the contractor’s quality control system, 
evaluate price proposals based on audit fee benchmarks, develop an understanding 
between the procurement office and the Chief Financial Officer’s (CFO) office for how 
they will work together to administer the IPA contract, or develop a contract 
administration plan. According to management, Amtrak is evaluating whether to 
develop policies and procedures for the contract administration plan best practice. 




 
                                                                                            7 

                               Amtrak Office of Inspector General
                                Annual Financial Statement Audits:
             Observations for Improving Oversight of the Independent Public Accountant
                      Report No. OIG-A-2012-017, September 27, 2012


Audit and Finance Committee Best Practices

We reviewed best practices from several organizations, including the American 
Institute of Certified Public Accountants (AICPA) and large public accounting firms, 
and identified practices that the Audit and Finance Committee could consider for 
strengthening its oversight of the IPA. Examples of best practices for audit committees 
are presented below and discussed in detail in Appendix IV. 

We provided this list of best practices to the Audit and Finance Committee in a May 4, 
2012, letter to the Audit and Finance Committee Chairman, and believe that the Audit 
and Finance Committee is already utilizing many of them, such as playing an active role 
in approving additional audit fees and discussing the IPA’s performance during fiscal 
year 2011 with the engagement partner after the audit.  

Best practices for audit committees includes: 

   Using a comprehensive charter matrix to ensure the committee meets all 
    responsibilities and duties outlined in its committee charter. 

   Including in audit committee charters a provision to oversee the IPA procurement 
    process. 

   Benchmarking audit fees against those of other comparable entities to ensure the 
    reasonableness of the fees. 

   Establishing a direct relationship with the IPA to meet oversight responsibilities.  

   Reviewing the audit scope and plan with the IPA, management, and the OIG, to 
    ensure completeness of coverage. 

   Approving changes in important accounting principles and their applications in 
    financial reports. 

   Reviewing all audit reports issued by the IPA prior to approving their release to the 
    public, government agencies, or other third parties. 

   Reviewing all material written communications between the IPA and management. 




 
                                                                                             8 

                               Amtrak Office of Inspector General
                                Annual Financial Statement Audits:
             Observations for Improving Oversight of the Independent Public Accountant
                      Report No. OIG-A-2012-017, September 27, 2012


   Assessing the steps management has taken or proposes to take to minimize 
    significant financial risks, and periodically reviewing the extent to which 
    management has implemented those steps. 

   Participating in the oversight of the employee benefit plan audits because a high 
    level of fiduciary responsibility for the administration of the employee benefit plan 
    remains with the plan sponsor.  


CONCLUSIONS
The Audit and Finance Committee and management have already implemented or have 
taken significant steps to implement most of the best practices we identified. These 
actions will enhance the oversight of the fiscal year 2012 financial statement audit.  


RECOMMENDATIONS
To improve the Audit and Finance Committee’s and management’s oversight of the IPA 
and the audit process, we recommend that 

The Audit and Finance Committee, Amtrak Board of Directors, 

1. approve the guidance developed in response to recommendation 5 as part of its role 
   to oversee the external auditors. The Audit and Finance Committee should review 
   the guidance prior to each audit service solicitation and revise it, as necessary, to 
   ensure that it is consistent with current industry best practices; and 

2. review and select for implementation, as appropriate, the best practices presented in 
   Appendix IV. 

 
The Acting Chief Financial Officer and Controller 

3. complete implementation of the best practice suggestions identified as 
   Implementation in Progress in Appendices II and III; 




 
                                                                                         9 

                              Amtrak Office of Inspector General
                               Annual Financial Statement Audits:
            Observations for Improving Oversight of the Independent Public Accountant
                     Report No. OIG-A-2012-017, September 27, 2012


4. provide more comprehensive training for the COTR and task monitor to ensure that 
   they understand their roles, responsibilities, and authority for managing the 
   technical performance of a complex service contract; and 

5. develop guidance for the IPA procurement that addresses the unique requirements 
   for procuring external independent audit services. The guidelines should 
   incorporate best practices for preparing solicitation documents, establishing 
   selection criteria, performing proposal evaluations, and analyzing audit fees. The 
   guidance should also describe management’s process for administering the contract 
   and facilitating the audit. 


MANAGEMENT AND AUDIT AND FINANCE COMMITTEE
COMMENTS AND OIG ANALYSIS
In commenting on a draft of this report, the Chairman, Audit and Finance Committee, 
and the Acting CFO and Controller stated that management and the Audit and Finance 
Committee are committed to implementing the necessary best practices suggested by 
the OIG in order to strengthen the company’s procedures related to the facilitation and 
oversight of the annual financial statement audit process. As discussed below, the 
Chairman and the Acting CFO agreed with all recommendations.  

With regard to recommendation 1, the Audit and Finance Committee agreed with the 
recommendation and stated that it had reviewed and approved the guidance for 
procuring external independent audit services; the Audit and Finance Committee will 
ensure that management periodically reviews the guidance and revises it as necessary 
to incorporate industry best practices. Recommendation 1 also stated that the guidance 
also describe management’s process for administering the contract and facilitating the 
audit. Management’s response did not specifically address this part of the 
recommendation. Concerning recommendation 2, the Audit and Finance Committee 
agreed, and stated that it had taken the appropriate action necessary to review and 
implement the best practices identified within Appendix IV of this report. 

Management agreed with recommendations 3, 4, and 5. Regarding recommendation 3, 
management stated that it had taken or will take the appropriate action to implement 
the best practices identified within Appendices II and III of this report. Concerning 
recommendation 4, management concurred with the recommendation to offer a more 


 
                                                                                         10 

                               Amtrak Office of Inspector General
                                Annual Financial Statement Audits:
             Observations for Improving Oversight of the Independent Public Accountant
                      Report No. OIG-A-2012-017, September 27, 2012


in‐depth training program that would provide the appropriate level of attention to the 
vital role of the COTR, and will determine by September 30, 2012, whether this new 
program should be offered in‐house or be presented by an outside firm specializing in 
this type of education. With regard to recommendation 5, management prepared and 
presented to the Audit and Finance Committee for its review and approval, guidelines 
that incorporate best practices for preparing solicitation documents, establishing 
selection criteria, performing proposal evaluations, and analyzing audit fees that will be 
utilized for IPA services. 

We are encouraged by the Chairman’s and management’s described actions. Consistent 
with our standard process, we will follow up to assess the Audit and Finance 
Committee and management’s progress in implementing this report’s 
recommendations during our work on the FY 2012 financial statement audit. 

                                         




 
                                                                                          11 

                               Amtrak Office of Inspector General
                                Annual Financial Statement Audits:
             Observations for Improving Oversight of the Independent Public Accountant
                      Report No. OIG-A-2012-017, September 27, 2012


                                          Appendix I

                        SCOPE AND METHODOLOGY
 
The objectives of this performance audit were to (1) gain an understanding of the 
company’s contract solicitation, administration, facilitation, and oversight activities as 
they relate to the IPA; and (2) identify best practices for the Audit and Finance 
Committee’s and management’s consideration in overseeing the IPA and the audit 
process. We performed our work from March, 2011 through August, 2012. 

We interviewed the former chairperson of the Audit and Finance Committee; the 
former CFO; the Acting CFO and Controller (who is also the COTR); the CO; the Senior 
Director, Internal Controls/Audits (who is also the task monitor); and members of the 
technical evaluation committee for the FY 2011 contract award. We also met with senior 
directors, directors, managers, and other representatives from the finance and 
procurement offices in Washington, D.C., and Philadelphia. We reviewed the IPA 
contract file and IPA solicitation documents for procuring the IPA for the FY 2011 and 
FY 2012 audits.  

We attended meetings between the company and IPA audit staff; IPA presentations to 
the Board; and Audit and Finance Committee meetings. We also monitored e‐mail 
correspondence between management and IPA audit staff, and attended site visits with 
IPA staff, including at Bear and Boulden in Wilmington, Delaware; Indianapolis; and 
Groton and Southbury, Connecticut. 

We consulted with the Government Accountability Office’s (GAO) technical assistance 
office, the AICPA Professional Ethics Division, and the AICPA Professional Ethics 
Executive Committee on matters related to auditor independence and compliance with 
government auditing standards and generally accepted auditing standards. 

To identify industry best practices, we researched and identified best practices and 
guidance from pubic accounting firms, the Council of the Inspectors General on 
Integrity and Efficiency and GAO, and current practices from other OIG offices on 
solicitation of external independent audit services, administration of the IPA contract, 
facilitation of the audit process, and audit committee best practices for overseeing the 
IPA to ensure audit quality. We identified 43 sources for best practices, which are listed 



 
                                                                                             12 

                               Amtrak Office of Inspector General
                                Annual Financial Statement Audits:
             Observations for Improving Oversight of the Independent Public Accountant
                      Report No. OIG-A-2012-017, September 27, 2012


in Appendix IV. We also interviewed representatives from 11 OIG offices responsible 
for overseeing the IPA and the audit process to gain an understanding of their current 
practices for overseeing the IPA and the financial statement audit. Finally, we reviewed 
sample documents from several OIG offices. We compared Amtrak’s existing policies, 
procedures, and guidance with best practices, to determine how well they aligned.  

We performed our audit work in accordance with generally accepted government 
auditing standards. Those standards require that we plan and perform the audit to 
obtain sufficient, appropriate evidence to provide a reasonable basis for our findings 
and conclusions based on our audit objectives. We believe that the evidence obtained 
provides a reasonable basis for our findings and conclusions based on our audit 
objectives. Our audit was not designed to enable us to express an opinion on the 
company’s financial statements and we do not express any opinion on the company’s 
financial statements. 

Internal Controls
Our review focused on activities used by the Audit and Finance Committee and 
management for performing oversight of the IPA and the audit process, which included 
contract solicitation, administration, facilitation, and oversight activities as they relate to 
the IPA. We addressed the controls related to each of these activities, but not 
management’s overall system of controls for each activity. 

Computer-Processed Data
Due to the nature of the audit objectives and the audit methodology, we did not rely on 
computer‐processed data during the audit. 

Prior Coverage
We reviewed the following audit reports and considered the information from those 
reports in developing our review approach:  

National Railroad Passenger Corporation and Subsidiaries (Amtrak) Single Audit Report, Year 
ended September 30, 2010 (with Independent Auditor’s Report Thereon), February 18, 2011 




 
                                                                                            13 

                               Amtrak Office of Inspector General
                                Annual Financial Statement Audits:
             Observations for Improving Oversight of the Independent Public Accountant
                      Report No. OIG-A-2012-017, September 27, 2012


National Railroad Passenger Corporation and Subsidiaries (Amtrak) Consolidated Financial 
Statements and Independent Auditors’ Report, For the Years Ended September 30, 2010 and 
2009 (and independent auditor’s report issued under auditing standards generally 
accepted in the United States), December 16, 2010 

National Railroad Passenger Corporation and Subsidiaries (Amtrak) Consolidated Financial 
Statements and Independent Auditors’ Report For the Years Ended September 30, 2010 and 
2009 (and independent auditor’s report issued under Government Auditing Standards 
issued by the Comptroller General of the United States), December 16, 2010 

Report on Internal Control over Financial Reporting and on Compliance and Other Matters 
Based on an Audit of Financial Statements Performed in Accordance with Government 
Auditing Standards (and independent auditor’s report), December 16, 2010  

Penn Station Leasing, LLC Financial Statements September 30, 2010 and 2009 (and 
independent auditor’s report), December 16, 2010 

Passenger Railroad Insurance, LTD. Financial Statements September 30, 2010 and 2009 (with 
Independent Auditor’s Report Thereon), December 16, 2010 

Passenger Railroad Insurance, LTD Statutory Financial Statements for the year ended 
September 30, 2010 (and report of Chartered Accountants), December 10, 2010 

Retirement Income Plan for the Employees of National Railroad Passenger Corporation, 
Financial Statements and Supplemental Schedules, December 31, 2009 and 2008 (with 
Independent Auditor’s Report Thereon), September 24, 2010 

Amtrak’s Retirement Savings Plan for Agreement Employees, Financial Statements and 
Supplemental Schedules, December 31, 2009 and 2008 (with Independent Auditor’s Report 
Thereon), July 29, 2010 

National Railroad Passenger Corporation Savings Plan, Financial Statements and Supplemental 
Schedules, December 31, 2009 and 2008 (with Independent Auditor’s Report Thereon), July 29, 
2010                             




 
                                                                                                                  14 

                                              Amtrak Office of Inspector General
                                               Annual Financial Statement Audits:
                            Observations for Improving Oversight of the Independent Public Accountant
                                     Report No. OIG-A-2012-017, September 27, 2012


                                                                  Appendix II

      MANAGEMENT BEST PRACTICES FOR AUDIT OVERSIGHT
                   FOR IPA SELECTION
            (Status of Recommendations Implemented through April 27, 2012)

Summary of status of best practice recommendations found in Appendices II and III):
     Number of best practices or recommendations applied/implemented       55
     Number of best practice implementations in progress                   15
     Number of best practice evaluations in progress                        2
         Total management best practices                                   72


                                                         Best Practices
                                                                                                        Amtrak
(Based on OIG review of Amtrak’s FY 2010 RFP solicitation documents                                     Status2
        and understanding of the process to acquire an IPA)

                         REQUEST FOR PROPOSAL—INSTRUCTIONS TO OFFERORS

A. General provisions and considerations to include in the RFP—Instructions to Offerors
   Document

1. Identify the minimum mandatory qualification that the auditor must meet in                    Best practice
   order to be included in the evaluation process, which should include the                      applied4
   following:
            The firm should provide a statement affirming that it meets the
             independence standard outlined in generally accepted government
             auditing standards with respect to the company;
            The firm has a history of performing quality audits of comparable
             entities;
            The firm and the key personnel are licensed to practice in the state or
             locality where the audit will be performed; and
            The firm complies with peer review and continuing professional
             education standards, i.e., provide a copy of the latest peer review
             report.
[Ref: 1, 2, 3, 4]3

                                                             
 2    Based on OIG review of 2012 RFP solicitation documents issued and revised through April 27, 2012  


  
                                                                                                                                                                                           15 

                                              Amtrak Office of Inspector General
                                               Annual Financial Statement Audits:
                            Observations for Improving Oversight of the Independent Public Accountant
                                     Report No. OIG-A-2012-017, September 27, 2012



                                                         Best Practices
                                                                                                                                                                      Amtrak
(Based on OIG review of Amtrak’s FY 2010 RFP solicitation documents                                                                                                   Status2
        and understanding of the process to acquire an IPA)
2. Results of prior audits or availability of prior audit reports.                                                                                            Best practice
                                                                                                                                                              applied
[Ref: 1, 2, 3, 4]

B. A description of what offerors’ should be required to address in their technical
   proposals

3. Describe how the offeror meets the minimum mandatory qualification as                                                                                      Best practice
   described in the instructions to offerors.                                                                                                                 applied
[Ref: 1, 3]
4. Describe the relevant experience of the offeror’s local office performing the Best practice
   work, in addition to the experience of the firm as a whole.                   applied
[Ref: 3, 4]
5. Discuss whether the offeror has been the object of any disciplinary action                                                                                 Best practice
   during the past 3 years.                                                                                                                                   applied
[Ref: 3, 4]
6. Discuss the level of staffing, by level, the offeror proposes to assign to the Best practice
   engagement, e.g., number of partners, senior managers, supervisory             applied
   seniors, seniors, and staff auditors who will be assigned to the engagement
   and the amount of time dedicated for each person.
[Ref: 2]
7. Identify and provide professional references for all key personnel assigned                                                                                Best practice
   to the audit team. If a subcontractor is used and the subcontractor will take                                                                              applied
   responsibility for all aspects of performance and reporting of an audit area,
   key personnel should also include these subcontractors.
[Ref: 1, 29]
8. Affirm that key personnel proposed to be assigned to the engagement do                                                                                     Best practice
   not have a record of poor-quality work.                                                                                                                    applied
[Ref: 1]


                                                                                                                                                                                                 
  See Appendix V for list of references used to identify best practices. 
 3

  “Best Practice Applied” indicates that OIG’s review of RFP solicitation documents showed that the best 
 4

 practice was applied to the RFP documents.  


  
                                                                                                       16 

                                   Amtrak Office of Inspector General
                                    Annual Financial Statement Audits:
                 Observations for Improving Oversight of the Independent Public Accountant
                          Report No. OIG-A-2012-017, September 27, 2012



                                Best Practices
                                                                                             Amtrak
(Based on OIG review of Amtrak’s FY 2010 RFP solicitation documents                          Status2
        and understanding of the process to acquire an IPA)
9. Discuss the use of technical experts (i.e., statisticians, information systems Best practice
   experts) that the offeror plans to include as members of the audit team,       applied
   and whether the offeror commits to maintaining continuity of technical
   experts.
[Ref: 2]
10. Discuss whether the offeror will use subcontractors and to what extent and Best practice
    what capacity. Offerors should provide sufficient information about all       applied
    subcontractors in their technical proposals, so that the technical evaluation
    criteria can also be applied to the subcontractor. Offeror should also submit
    the most recent copy of the subcontractor’s external peer review reports.
[Ref: 29]
11. Firms should be asked to describe in their proposals all work, including          Best practice
    nonaudit services, they have done for the audited entity in the last several      applied
    years.
[Ref: 8, 30]

                                      STATEMENT OF WORK

C. General provisions and considerations to include in SOW

12. Overall objective of this statement of work.                                      Best practice
                                                                                      applied
[Ref: 2, 8]
13. Period of performance for the SOW.                                                Best practice
                                                                                      applied
[Ref: 1, 2, 8]
14. Extent to which company will provide administrative, work space,                  Best practice
    information technology (IT), or other support to contractor.                      applied
[Ref: 2]
15. Include requirements for the contractor to review other accompanying              Best practice
    information containing auditing financial statements, e.g., review of             applied
    Amtrak’s Annual Report.
[Ref: 2]




  
                                                                                                       17 

                                   Amtrak Office of Inspector General
                                    Annual Financial Statement Audits:
                 Observations for Improving Oversight of the Independent Public Accountant
                          Report No. OIG-A-2012-017, September 27, 2012



                                 Best Practices
                                                                                             Amtrak
(Based on OIG review of Amtrak’s FY 2010 RFP solicitation documents                          Status2
        and understanding of the process to acquire an IPA)
16. Approximate dates records would be ready for audit.                               Best practice
                                                                                      applied
[Ref: 1]
17. The COTR and a task monitor should be identified in the SOW.                      Best practice
     (Note: Although the COTR is officially named in the contract, best practices
                                                                                      applied
     suggest including the COTR and a task monitor in the SOW as well, as these
     individuals are responsible for oversight and day-to-day implementation of the
     SOW.)
[Ref: 2, 8]
18. Provide information and instruction to the contractor about obtaining             Best practice
    security access badges and network access for audit team members                  applied
    working at Amtrak offices.
[Ref: 2]
19. Require contractor’s audit staff to attend Amtrak’s contractor safety             Best practice
    training, as required by Amtrak policies and procedures.                          applied
[Ref: 2, 8]

D. Provide information necessary for offerors to gain an understanding of the complexity
   and risks of the company and to assist offerors in determining the type and level of
   testing to be performed

20. Describe the company’s mission, history, organizational structure,                Best practice
    governance structures, and work, etc.                                             applied
[Ref: 1, 2, 8]
21. Describe significant funding/revenue sources, including government funds.         Best practice
                                                                                      applied
[Ref: 1, 2]
22. Describe the accounting systems used, and list of other systems or                Best practice
    applications that affect financial reporting and network systems.                 applied
[Ref: 1, 2, 3, 4, 8]
23. Describe the finance/accounting department structure and who has the              Best practice
    responsibility for preparing each set of financial statements and the             applied
    accounting principles under which financial statements are prepared.
[Ref: 2, 8]



  
                                                                                                       18 

                                   Amtrak Office of Inspector General
                                    Annual Financial Statement Audits:
                 Observations for Improving Oversight of the Independent Public Accountant
                          Report No. OIG-A-2012-017, September 27, 2012



                                Best Practices
                                                                                             Amtrak
(Based on OIG review of Amtrak’s FY 2010 RFP solicitation documents                          Status2
        and understanding of the process to acquire an IPA)
24. Additional consideration for employee benefit plans to provide offerors with Best practice
    perspective on the magnitude and complexity of the plans; at a minimum,      applied
    describe: type of plan, number of participants, total assets, location of
    personnel files and payroll, whether third-party service providers’ control
    reports will be available.
[Ref: 7]
25. Additional considerations for single audits include providing information  Best practice
    concerning federal funding; the cognizant federal audit agency; results of applied
    previous audits including the types of auditors’ opinions rendered on the
    financial statements and compliance with federal laws and regulations,
    contracts and grants; previous audit findings, etc. This information is
    necessary for prospective proposers to gain an understanding of whether
    your organization may qualify for ‘low-risk auditee’ status, including a
    general understanding of the federal programs that may need to be audited
    as “major federal programs.”
[Ref: 3, 4]
26. How and where accounting records are maintained, and description and              Best practice
    magnitude of the entity's accounting records.                                     applied
[Ref: 1, 2, 3]
27. Establishing a work schedule with specific dates by which certain              Best practice
    milestones in the audit process must be reached, which at a minimum            applied
    should include planning, internal control, substantive testing, reporting, and
    testing of the IT control environment.
[Ref: 1, 2, 4]
28. Include a schedule of deliverables with due dates.                                Best practice
                                                                                      applied
[Ref: 2]

E. Deliverables the contractor should provide

29. The contractor shall submit a list and resumes of every audit team member Best practice
    performing work under the SOW to the COTR for approval.                   applied
[Ref: 2, 8]




  
                                                                                                       19 

                                   Amtrak Office of Inspector General
                                    Annual Financial Statement Audits:
                 Observations for Improving Oversight of the Independent Public Accountant
                          Report No. OIG-A-2012-017, September 27, 2012



                                Best Practices
                                                                                             Amtrak
(Based on OIG review of Amtrak’s FY 2010 RFP solicitation documents                          Status2
        and understanding of the process to acquire an IPA)
30. Contractor should be required to communicate all changes to the audit      Best practice
    team to the COTR, prior to new audit staff performing any audit work under applied
    the SOW.
[Ref: 2, 4, 8]
31. Annual independence statement from the contractor to provide sufficient           Best practice
    information for the COTR/OIG to assess and verify whether the contractor          applied
    is independent.
[Ref: 2, 8]
32. The contractor should be required to provide Individual independence and          Best practice
    confidentiality statements for each individual assigned to perform work           applied
    under the SOW.
[Ref: 2, 8]
33. The contractor should be required to provide a Contractor’s Quality Control Best practice
    Assurance Statement describing his/her quality control process.             applied
[Ref: 2, 8]
34. The contractor should be required to provide continuing professional              Best practice
    education records for each member or individual assigned to the work              applied
    under the IPA contract.
[Ref: 2, 4, 8]
35. The contractor should be required to hold an entrance conference with             Best practice
    company management and the OIG, with a milestone date for holding the             applied
    meeting. Include due dates for providing meeting materials prior to the
    meeting.
[Ref: 8]
36. Provide due dates for providing the agenda and briefing materials for             Best practice
    weekly status meetings and provide guidance on what the contractor                applied
    should be prepared to discuss at the status meetings.
[Ref: 2, 8]




  
                                                                                                     20 

                                 Amtrak Office of Inspector General
                                  Annual Financial Statement Audits:
               Observations for Improving Oversight of the Independent Public Accountant
                        Report No. OIG-A-2012-017, September 27, 2012



                               Best Practices
                                                                                           Amtrak
(Based on OIG review of Amtrak’s FY 2010 RFP solicitation documents                        Status2
        and understanding of the process to acquire an IPA)
37. Require the contractor to hold an interim briefing with company                  Best practice
    management to discuss results of interim internal control and substantive        applied
    testing, with a milestone date for holding the meeting. Include dues dates
    for providing meeting materials prior to the meeting.
[Ref: 8]
38. Provide plans/dates for the contractor to meet with the Audit Committee          Best practice
    and/or the Board. Include due dates for providing the presentation               applied
    materials with sufficient time for inclusion in the mailing of the meeting
    materials provided to the Board prior to the date of the meeting.
[Ref: 8]
39. Require the contractor to hold an exit conference with company                   Best practice
    management and OIG prior to issuance of final reports and audit opinions,        applied
    with a milestone date for holding the meeting. Include due dates for
    providing meeting materials prior to the meeting.
[Ref: 8]
40. Hold a Lessons-Learned meeting soon after completion of the audit to             Best practice
    discuss what went well and what actions could be taken to improve the            applied
    process in the next audit cycle. Include a milestone date for holding this
    meeting and require the contractor and key audit staff to attend.
[Ref: 8]
41. Include the contractor’s PBC list as a deliverable and include due dates for     Best practice
    providing the PBC list to company management.                                    applied
[Ref: 8]
42. Utilize Notice of Findings and Recommendations to keep company                   Best practice
    management and OIG apprised of audit issues arising throughout the               applied
    audit, rather than waiting until the end of the audit to resolve audit issues.
[Ref: 2, 8]
43. Include a Summary of Unadjusted Audit Differences schedule as a          Best practice
    deliverable and include due dates for providing it to company management applied
    and OIG for review.
[Ref: 2, 8]




  
                                                                                                                  21 

                                              Amtrak Office of Inspector General
                                               Annual Financial Statement Audits:
                            Observations for Improving Oversight of the Independent Public Accountant
                                     Report No. OIG-A-2012-017, September 27, 2012



                                                         Best Practices
                                                                                                        Amtrak
(Based on OIG review of Amtrak’s FY 2010 RFP solicitation documents                                     Status2
        and understanding of the process to acquire an IPA)
44. Include draft and final reports as deliverables and include due dates for                    Best practice
    providing them to company management and OIG for review.                                     applied
[Ref: 2, 8]
45. Include draft and final management letter comments as deliverables and Best practice
    include due dates for providing them to company management and OIG for applied
    review.
[Ref: 2, 8]
46. Provide status of prior-year’s recommendations.                                              Best practice
                                                                                                 applied
[Ref: 2, 8]
47. Require the contractor to issue a letter addressing auditor’s required                       Best practice
    communications to the Board and include due dates for providing it to                        applied
    company management and OIG for review.
[Ref: 24]

                                                                CONTRACT5 PROVISIONS

48. Use a payment schedule that is based on acceptance of deliverables or      Best practice
    achieving audit milestones. The contractor will be required to submit      applied
    monthly progress reports detailing how the contractor has met the required
    deliverable or milestone.
[Ref: 2, 8]
49. All reports rendered to the entity by the contracting auditor are the          Best practice
    exclusive property of the entity and subject to its use and control, according applied
    to applicable laws and regulations.
[Ref: 3, 4]




                                                             
  The term “contract” as used in this section refers to the Amtrak Services Contract General Provisions 
 5

 document. 


  
                                                                                                      22 

                                  Amtrak Office of Inspector General
                                   Annual Financial Statement Audits:
                Observations for Improving Oversight of the Independent Public Accountant
                         Report No. OIG-A-2012-017, September 27, 2012



                               Best Practices
                                                                                            Amtrak
(Based on OIG review of Amtrak’s FY 2010 RFP solicitation documents                         Status2
        and understanding of the process to acquire an IPA)
50. Include a Removal from Duty clause describing behaviors considered to be Best practice
    misconduct or delinquency that will result in immediate removal of          applied
    contractor employees. Examples of such behaviors include: neglect of
    duty, including sleeping while on duty; unreasonable delays, or failure to
    carry out assigned tasks; conducting personal affairs during official time;
    and refusing to cooperate in upholding the integrity of company’s security
    program, etc. (refer to recommendation to revise contractor language
    related to Contractor Personnel / Key Personnel #51 below).
[Ref: 2]
51. Contract section 11, Contractor Personnel / Key Personnel, subsection D:          Recommendation
                                                                                      implemented
     Observation. The language in contract section 11.D allows Amtrak to
     require the contractor (IPA) to remove any member of its audit team at any
     time and for any reason, and the “contractor must comply.” This language
     impairs independence because it provides the company with the ability to
     exert undue influence on whom and how the contractor conducts its audit.

     Recommendation. We recommended that management revise the contract
     language to require a written justification for any request to remove a
     contractor’s employee and provide that the contractor will consider the
     company’s request, but that the ultimate decision to remove a member of
     the audit team lies with the contractor, not with management. Add a
     removal from duty clause.

52. Contract section 22, Audit and Inspection:                                        Recommendation
                                                                                      implemented
     Observation. The language in contract section 22 provides Amtrak the right
     to “inspect, copy and/or audit” “without limitation” the contractor’s “work or
     deliverables in progress.” This provision impairs the contractor’s
     independence because it can interfere with the contractor’s selection or
     application of audit procedures, thus impairing the integrity of the current
     and future-year audits.

     Recommendation. We recommended that management remove references
     to Amtrak from this provision. Additionally, section 10 of the Supplemental
     General Provisions for Non-construction Contracts contains similar
     language that should also be revised. Provisions regarding Amtrak’s ability
     to review invoices and support for equitable adjustments in the audit fee
     should be addressed in a separate provision as part of the payment clause.




  
                                                                                                       23 

                                   Amtrak Office of Inspector General
                                    Annual Financial Statement Audits:
                 Observations for Improving Oversight of the Independent Public Accountant
                          Report No. OIG-A-2012-017, September 27, 2012



                                Best Practices
                                                                                             Amtrak
(Based on OIG review of Amtrak’s FY 2010 RFP solicitation documents                          Status2
        and understanding of the process to acquire an IPA)
53. Contract section 24, Indemnification, subsection B:                               Recommendation
                                                                                      implemented
     Observation. The language in contract section 24.B requires the contractor
     to reimburse Amtrak for any costs that Amtrak incurs to defend itself from
     claims that the contractor’s employee or subcontractor may bring against
     Amtrak due to Amtrak’s “negligence or fault,” which inappropriately shifts
     responsibility for potential cost of claims that Amtrak would “be responsible
     for or pay” to the IPA. This language impairs the IPA’s independence
     because it creates a financial relationship that management can use as
     leverage with the IPA to obtain a favorable audit opinion that may not be
     consistent with the audit opinion that the auditor may have given if the
     financial relationship were not in place.

     Recommendation. We recommend that management revise the contract
     language to eliminate the requirement for the contractor to indemnify
     Amtrak for claims that are Amtrak’s fault.

                                    TECHNICAL EVALUATION

54. Prescreen potential offerors to determine those that possess basic or          Implementation in
    mandatory qualifications. Only evaluate offerors who meet minimum              progress
    mandatory qualifications required for an independent auditor. The extent to
    which entities prequalify offerors should be consistent with the size of their
    audit engagements. [See best practice 1. above for a suggested list of
    qualifications, which should be included in the RFP.]
[Ref: 1, 3, 4]
55. At a minimum, entities should include the following technical evaluation          Best practice
    criteria:                                                                         applied
      Firm’s technical approach to performing the audit and soundness of
       technical approach, including the firm's quality control and supervisory
       and review procedures;
      Qualifications and technical backgrounds of staff to be assigned to the
       engagement;
      Qualifications of the firm, e.g., past industry experience, size and
       location of the firm, range of activities performed by the firm, prior
       clients’ positive opinion of the firm; and




  
                                                                                                       24 

                                   Amtrak Office of Inspector General
                                    Annual Financial Statement Audits:
                 Observations for Improving Oversight of the Independent Public Accountant
                          Report No. OIG-A-2012-017, September 27, 2012



                                Best Practices
                                                                                             Amtrak
(Based on OIG review of Amtrak’s FY 2010 RFP solicitation documents                          Status2
        and understanding of the process to acquire an IPA)

      Understanding of the audit requirements: does the proposal
       demonstrate that the proposer has an understanding of the SOW, your
       organization's needs, and the final products to be delivered?
[Ref: 1, 3, 4]
56. Develop written definitions for each technical evaluation criterion and           Implementation in
    guidelines for how to apply each. For example, define what is meant by            progress
    “experience” and what specifically members of the technical evaluation
    committee should look for when applying the “experience” criterion.
[Ref: 1, 4, 31, 32]
57. Provide technical evaluation committee members with written guidance on           Implementation in
    how to perform the evaluation and how to apply each technical criterion           progress
    when reviewing proposals, e.g.:
      Initial evaluations should be based on the offerors’ proposals as
       submitted;
      As proposals are evaluated, a list of strengths and weaknesses for each
       should be made to support its technical rating.
[Ref: 3, 4, 32, 33]
58. The most qualified offerors should be asked to make oral presentations to         Implementation in
    the technical evaluation committee and/or the audit committee. The oral           progress
    technical proposal should be adequate to demonstrate how the offeror
    proposes to comply with the requirements of the solicitation, along with full
    techniques and procedures to be followed.
[Ref:11, 14, 29]
59. Management should perform a periodic analysis of audit fees that                  Implementation in
    benchmark the company’s fees against those of other companies of                  progress
    comparable size, complexity, and risk. At a minimum, management should
    analyze the trends in audit fees and understand the cause of fluctuations
    and apply them to the company’s situation.
[Ref: 5]




  
                                                                                                     25 

                                 Amtrak Office of Inspector General
                                  Annual Financial Statement Audits:
               Observations for Improving Oversight of the Independent Public Accountant
                        Report No. OIG-A-2012-017, September 27, 2012



                              Best Practices
                                                                                           Amtrak
(Based on OIG review of Amtrak’s FY 2010 RFP solicitation documents                        Status2
        and understanding of the process to acquire an IPA)

                               THE PROCUREMENT PROCESS

60. GAO recommends that entities formulate detailed procurement guidance            Evaluation in
    [for procuring external independent audit services] as an important vehicle     process
    to improving audit quality.
[Ref: 1]
  
                                




  
                                                                                                 26 

                                  Amtrak Office of Inspector General
                                   Annual Financial Statement Audits:
                Observations for Improving Oversight of the Independent Public Accountant
                         Report No. OIG-A-2012-017, September 27, 2012


                                            Appendix III

     MANAGEMENT BEST PRACTICES FOR AUDIT OVERSIGHT
           FOR IPA CONTRACT ADMINISTRATION
                 AND AUDIT FACILITATION
        (Status of Recommendations Implemented through April 27, 2012)

                                Best Practices
                                                                                            Amtrak
 (Based on OIG review of Amtrak’s FY 2011 IPA Contract Administration                       Status
                   and Audit Facilitation processes)

                                 CONTRACT ADMINISTRATION

61. Convening periodic meetings with top level contractor officials and user    Implementation
    department officials to discuss the contractor's performance helps the COTR in progress
    ensure that contract terms and conditions are being adhered to.
[Ref: 12]
62. The COTR should ensure that the appropriate audit and company personnel Implementation
    communicate when changes in key personnel are expected at any time               in progress
    during the audit. Similarly, when there have been changes to CFO staff or
    other critical entity staff, the COTR should notify the contractor and arrange a
    meeting, if needed, to ensure that all parties are aware of the change.
     When changes in key personnel occur, either at the company or the
     contractor (or subcontractor), a more-than-the-usual level of attention should
     be given to the planning stage and the overall communication strategy.
     This includes communicating staff changes early enough to ensure
     contractor compliance with an entity’s performance and security
     requirements.
[Ref: 9]
63. The CO responsible for consenting to changes in subcontracts shall review       Implementation
    the contractor’s notification and supporting data to ensure that the contractor in progress
    has a sound basis for selecting and determining the responsibility of the
    particular subcontractor, the proposed subcontract is appropriate for the risks
    involved, and is consistent with current policy and sound business judgment.
    The COTR should assist the contracting official in his/her evaluation, as
    requested.
[Ref: 11, 12, 23, 26]


  
                                                                                                   27 

                                  Amtrak Office of Inspector General
                                   Annual Financial Statement Audits:
                Observations for Improving Oversight of the Independent Public Accountant
                         Report No. OIG-A-2012-017, September 27, 2012



                                Best Practices
                                                                                            Amtrak
 (Based on OIG review of Amtrak’s FY 2011 IPA Contract Administration                       Status
                   and Audit Facilitation processes)
64. The COTR and the CO should develop a clear understanding of what is                Implementation
    expected of the COTR and how the COTR and the CO will work together to             in progress
    monitor performance of the contract. A partnership between the COTR and
    the CO can be useful in establishing and achieving contract objectives
    because these two officials are responsible for ensuring that the contracting
    process is successful.
     This communication and understanding between the COTR and CO should
     be documented in the COTR’s file.
[Ref: 12, 13]
65. The COTR should establish and maintain a current and separate record-              Implementation
    keeping system that documents job progress and problems as they occur.             in progress
    Files should be organized so that someone could reconstruct and
    understand the history of the contract in the absence of the COTR. Contract
    files should hold all the information necessary to know what was expected
    and received under the contract. This file must be available for review by the
    CO, IG, GAO, or any other official authorized by the CO.
[Ref: 15, 19, 26]
66. Management should ensure that company personnel assigned to manage                 Evaluation in
    and oversee the contract administration function (e.g., the COTR and task          process
    monitor), particularly for highly specialized or technical services, are trained
    and experienced.
     Many organizations have a mandatory COTR training program. Even in
     those that do not, their COTRs still attend a basic COTR course;
     procurement ethics training; refresher COTR training; and procurement
     ethics and integrity training. COTRs are encouraged to keep pace with
     changes in procurement by completing a minimum of eight additional hours
     of contract administration training every 3 years, preferably through a
     refresher COTR training course. Courses in service contracting and
     preparing statements of work are very helpful for COTRs who handle
     complex and service contracts; they help them in the preparation of the
     contract administration plan.
[Ref: 12, 17]




  
                                                                                                   28 

                                  Amtrak Office of Inspector General
                                   Annual Financial Statement Audits:
                Observations for Improving Oversight of the Independent Public Accountant
                         Report No. OIG-A-2012-017, September 27, 2012



                                Best Practices
                                                                                            Amtrak
 (Based on OIG review of Amtrak’s FY 2011 IPA Contract Administration                       Status
                   and Audit Facilitation processes)
67. The COTR should develop a contract administration plan (CAP) in order to           Implementation
    mitigate the risks associated with service-type contracts. The CAP should          in progress
    describe the methodology for ensuring performance of the SOW and
    adherence to contract terms. This saves time and resources because the
    COTR is not monitoring the mundane, routine portions of the contract;
    instead the COTR is focusing on the major deliverables of the contract.
     The COTR must determine what level of oversight is necessary to ensure
     that the contractor makes satisfactory progress toward the successful
     completion of the contract.
     The CAP may be a simple view of planned and completed activities and can
     be utilized throughout the contract period as a status report. It should detail
     the methods that the agency will use to monitor the contractor, or it could be
     more complex.
     A copy of the CAP should be provided to the CO and to any other member of
     the oversight team who might benefit. The CAP should be updated during
     performance to reflect any changes to the contract and be redistributed. The
     COTR may supplement the elements of the monitoring plan, as needed.
     The GAO framework identifies the use of contract monitoring plans or risk-
     based strategies for tracking contractor performance as an indicator that
     entities are effectively monitoring and providing oversight to contractors.
[Ref: 12, 19, 20, 28]

                         AUDIT FACILITATION AND COORDINATION

68. We recommended that management implement a project collaboration tool,             Best practice
    called SharePoint, to house, track, and manage PBCs provided to the                implemented
    contractor’s audit team.
[Ref: 25]




  
                                                                                                  29 

                                  Amtrak Office of Inspector General
                                   Annual Financial Statement Audits:
                Observations for Improving Oversight of the Independent Public Accountant
                         Report No. OIG-A-2012-017, September 27, 2012



                                Best Practices
                                                                                            Amtrak
 (Based on OIG review of Amtrak’s FY 2011 IPA Contract Administration                       Status
                   and Audit Facilitation processes)
69. One auditor appointed by the contractor and a representative from the           Implementation
    company should be the points of contact and held responsible for                in progress
    coordinating the PBC requests to and responses from the company. These
    representatives should meet at least weekly to review the PBC list together.
    The purpose of these meetings is to identify changes in or deletions from the
    PBC list, discuss any delays or accelerations in providing information, clarify
    any requests, and discuss PBC items coming due within the next 2 weeks.
    These representatives should be informed of all new PBC requests,
    including follow-up requests.
     Key outstanding PBC items overdue from company personnel should be
     discussed at the weekly status meetings. This allows for discussion and
     resolution of problems before significant delays occur. Overdue PBC items
     should also be elevated to the CFO for explanation and a revised due date.
[Ref: 9, 23, 25, 27]
70. Regular status meetings could be strengthened by developing a structure            Implementation
    that allows two-way communication between the contractor and                       in progress
    management. This structure provides opportunities for feedback, facilitate
    reaching agreements, and eliminate surprises.
     These meetings are a means for the contractor to provide information on
     audit issues, obstacles, and timelines; they also provided an opportunity for
     management to ask questions and express concerns. These meetings
     become more frequent as the financial statements are prepared and the
     audit draws to conclusion (e.g., weekly in the beginning and daily toward the
     end).
[Ref: 9, 23, 24]
71. Require the contractor to provide written notice of findings and                   Implementation
    recommendations during the audit so that management is made aware, as              in progress
    soon as feasible, of the issues identified by the contractor. This process
    facilitates the resolution of any disagreements with the facts or
    recommended corrective actions and allows management time to
    understand the issues and determine whether the auditors had all relevant
    information.
[Ref: 23]




  
                                                                                                30 

                                Amtrak Office of Inspector General
                                 Annual Financial Statement Audits:
              Observations for Improving Oversight of the Independent Public Accountant
                       Report No. OIG-A-2012-017, September 27, 2012



                              Best Practices
                                                                                          Amtrak
 (Based on OIG review of Amtrak’s FY 2011 IPA Contract Administration                     Status
                   and Audit Facilitation processes)
72. Following completion of the audit, representatives from the company,             Implementation
    contractor, and management should hold a lessons-learned meeting to              in progress
    discuss how coordination may be further improved and to highlight
    challenges for the next audit cycle. This meeting should be conducted soon
    after the completion of the audit so that the past year’s experience and
    issues can be appropriately addressed.
[Ref: 9]
  




  
                                                                                         31 

                               Amtrak Office of Inspector General
                                Annual Financial Statement Audits:
             Observations for Improving Oversight of the Independent Public Accountant
                      Report No. OIG-A-2012-017, September 27, 2012


                                         Appendix IV

    AUDIT COMMITTEE BEST PRACTICES FOR IPA OVERSIGHT
 

1. Best practice: Audit committees use a comprehensive charter matrix to 
ensure that they meet all responsibilities and duties outlined in its 
committee charter. 
Audit committees use an audit committee charter matrix to set an agenda for the year 
and guide audit committee meetings. The matrix can be improved by including all 
responsibilities and duties outlined in the charter with defined steps to accomplish each 
objective; any support provided by management, the OIG, or external experts; the 
associated performance measure (e.g., report to the Board that reviews have taken place 
and any matters that need to be brought to its attention have been done); and the 
schedule of events. Additionally, committees review and approve a new audit 
committee charter matrix prior to the start of each year and update it at least quarterly.  


2. Best practice: Audit committee charters include a responsibility to 
oversee the IPA procurement process. 
Our research shows that audit committees can play a critical role in ensuring that the 
organization’s independent audit services request for proposal (RFP) is complete and 
contains the necessary elements for the successful procurement of professional auditing 
services. This can be done through the following steps: (1) reviewing the organization’s 
RFP documents to ensure that they contain the information necessary for potential 
offerors to fully understand the company and result in an efficient and effective 
independent audit; (2) obtaining an understanding of management’s process for 
planning and preparing the RFP, including the expertise of the individuals preparing, 
reviewing, and approving the RFP documents, the information requested from offerors, 
the technical criteria used to evaluate proposals, and the method used to select 
members of the technical evaluation committee who will review and score the technical 
proposals; (3) advising, reviewing, and approving specific guidance for procuring 
independent financial audit services as part of its role to oversee the IPA; and (4) 
approving the IPA‐specific guidance as part of its role in overseeing the external 
auditors. The Committee should review the guidance prior to each audit service 


 
                                                                                         32 

                               Amtrak Office of Inspector General
                                Annual Financial Statement Audits:
             Observations for Improving Oversight of the Independent Public Accountant
                      Report No. OIG-A-2012-017, September 27, 2012


solicitation and revise it as necessary to ensure consistency with current industry best 
practices. 


3. Best practice: Audit committees benchmark audit fees against those of 
other comparable entities. 
Audit committees consider the reasonableness of a company’s audit fees as 
benchmarked against other organizations of comparable size and complexity to 
evaluate fee proposals prior to approving initial audit fees. Audit committees use the 
benchmark results as a tool to lower audit fees that are too high or to increase audit fees 
that are too low in comparison to fees charged to similar entities. The benchmarking of 
audit fees occurs as a regular part of the IPA audit fee approval process. Committees 
consider that “…while it may be natural to review the [proposed audit] fee solely from 
the perspective of being ‘too high,’ a fee that is too low may actually provide more risk 
to the company. An ‘overly aggressive’ negotiated fee can put significant pressure on 
the auditors when determining an appropriate audit scope that adequately addresses 
the higher risk areas.” Using a market price analysis of audit fees is a useful tool to 
establish fee expectations and to negotiate fees to ensure that a company does not pay 
wildly divergent fees from other organizations of comparable size and complexity.  


4. Best practice: Audit committees establish a direct relationship with the 
IPA to meet its oversight responsibilities.  
Audit committees establish a relationship with the IPA’s lead engagement partner by 
having frequent and ongoing communications, including meeting and communicating 
outside of regularly scheduled meetings.  

Dialogue between the audit committee and the lead engagement partner includes the 
following:  

   Establishing expectations regarding the nature and method of communications and 
    exchange of insights; 
   Establishing and reinforcing the understanding that the IPA is accountable to the 
    board of directors and the audit committee; 




 
                                                                                         33 

                               Amtrak Office of Inspector General
                                Annual Financial Statement Audits:
             Observations for Improving Oversight of the Independent Public Accountant
                      Report No. OIG-A-2012-017, September 27, 2012


   Communicating that it is the IPA’s responsibility to maintain his or her objectivity 
    and to comply with all applicable independence regulations and requirements, and 
    that it is the audit committeeʹs responsibility to assess whether the auditor has done 
    so; 
   Discussing matters that affect the integrity of the financial statements, such as the 
    appropriateness of management’s application of accounting principles and practices, 
    and the quality of internal controls; 
   Discussing fraud risks and issues that “keep [the committee] awake at night” and 
    understanding IPA concerns; 
   Discussing IPA disagreements with management regarding accounting practices 
    and alternative treatments of financial information and how it may affect the IPA’s 
    audit approach and the integrity of the financial statements; 
   Understanding the qualifications of the lead engagement partner and his/her senior 
    team members; 
   Discussing the IPA’s assessment of management’s competency and effectiveness in 
    executing its responsibilities; and 
   Obtaining IPA’s perspective on the progress of the audit and addressing issues as 
    they arise to prevent their becoming more severe. 


5. Best practice: Audit committees review a written independence 
statement from the IPA to ensure IPA independence. 
Audit committees annually obtain a written statement from the IPA delineating all 
relationships between the auditing firm and the company and describing the IPA’s 
process to ensure its independence with respect to the company. Committees also 
review and inquire about the IPA firm’s partner rotation requirements and whether 
those requirements meet the needs of the company to ensure continued objectivity 
when performing the company’s audits.  

                              




 
                                                                                        34 

                              Amtrak Office of Inspector General
                               Annual Financial Statement Audits:
            Observations for Improving Oversight of the Independent Public Accountant
                     Report No. OIG-A-2012-017, September 27, 2012


6. Best practice: Audit committees review the audit scope and plan with 
the IPA, management, and the OIG to ensure completeness of coverage. 
Audit committees enhance their reviews of the IPA’s annual audit plan by ensuring that 
the scope and audit plan cover all of the audits for which the IPA is engaged to perform 
under the statement of work, and any specific requirements or considerations for each 
type of audit, including those for single audits, employee benefit plans, and subsidiary 
audits. 


7. Best practice: Audit committees approve major changes in significant 
accounting principles and their application in financial reports. 
Audit committees review major changes to significant accounting principles and 
policies with the IPA, management, and the OIG. Company accounting policies should 
require management to submit major changes to accounting principles and practices to 
the audit committee for consideration and approval, which helps ensure that changes in 
significant accounting principles and policies are brought to the attention of the audit 
committee. 


8. Best practice: Audit committees review all audit reports issued by the 
IPA prior to approving their release to the public, government agencies, or 
other third parties. 
Audit committees obtain and review all of the company’s audited financial statements 
and reports issued by the IPA and discuss them with the IPA, management, and OIG. 
They cover the overall quality of financial reporting and the external auditor’s 
judgments on the quality, not just the acceptability, of the organization’s accounting 
principles as applied in its financial reporting. Discussions may be most effective with 
management officials directly responsible for each audit report.  


                             




 
                                                                                         35 

                               Amtrak Office of Inspector General
                                Annual Financial Statement Audits:
             Observations for Improving Oversight of the Independent Public Accountant
                      Report No. OIG-A-2012-017, September 27, 2012


9. Best practice: Audit committees receive letters from the IPA regarding 
matters required to be discussed by current auditing standards upon 
completion of its audits. 
Audit committees obtain letters from the IPA covering matters required to be 
communicated under Statement on Auditing Standards (SAS) 114, The Auditor’s 
Communication with Those Charged with Governance, after all audit procedures are 
complete. The scope of the SAS 114 letter(s) incorporates all audits performed by the 
IPA, which may result in more than one SAS 114 letter.  


10. Best practice: Audit committees review all material written 
communications between the IPA and management. 
Audit committees review all material written communications between the external 
auditors and management, such as any management representation letters and 
schedules of unadjusted differences, for all audit engagements performed by the IPA. 


11. Best practice: Audit committees assess the steps management has taken 
or proposes to take to minimize significant financial risks and periodically 
reviews the extent to which management has implemented the steps. 
Audit committees can enhance their assessments of steps taken to minimize significant 
financial risks to the company by having a process to assess the extent to which 
management addresses outstanding audit recommendations and improvements in 
financial or accounting practices throughout the year. The process includes reviewing 
with management the course of action to be taken for any deficiencies that have not 
been resolved and monitor any follow‐up action.  


12. Best practice: Audit committees oversee employee benefit plan audits. 
Audit committees participate in the oversight of the employee benefit plan (EBP) audits 
because a high level of fiduciary responsibility for the administration of the EBPs 
remains with the plan sponsor. The plan sponsor and the plan administrator have 
responsibility for meeting annual reporting and other compliance‐related matters. 
There is a significant amount of risk to plan sponsors associated with the audits of their 
Employee Retirement Income Security Act (ERISA) plans. Recent Department of Labor 

 
                                                                                        36 

                              Amtrak Office of Inspector General
                               Annual Financial Statement Audits:
            Observations for Improving Oversight of the Independent Public Accountant
                     Report No. OIG-A-2012-017, September 27, 2012


studies of audit quality have identified significant deficiencies in plan audits. 
Accordingly, Labor has dramatically increased and revised its enforcement strategies 
with respect to audit deficiencies. The penalties for such audit failures can be 
substantial. Labor can assess penalties on plan sponsors of up to $1,100 a day (capped at 
$50,000) per annual report filing, where the required auditor’s report is missing or 
deficient. Plan sponsors should make the selection of the plan auditor a high priority 
and oversee the audit process, and also review audited financial statements of EBPs. 


13.  Best Practices also suggest including the following responsibilities and 
duties in the audit committee charter:  

A. Formally review and evaluate the IPA’s performance (post‐audit quality 
evaluation) on an annual basis. 
After the audit, the Audit and Finance Committee Chairman met with the engagement 
partner, in person, to provide feedback on the IPA’s performance during the FY 2011 
audit, and communicate expectations for the FY 2012 audit. 

B. Review the experience and qualifications of the lead partner each year.  
Audit committees ensure that the lead engagement partner has the appropriate 
technical expertise and relevant industry experience by having annual conversations 
with the lead engagement partner about his or her related experience and qualifications 
to perform the audit, and the experience of other key personnel assigned to the 
engagement.  

C. Obtain a written statement of the IPA’s quality control policies and procedures to 
ensure that they have an adequate quality control process in place to meet professional 
and regulatory requirements, as well as client expectations. 
Audit committee charters include a responsibility, as part of its initial and continuing 
evaluation of the capabilities of the IPA, to assess the IPA’s system of quality control 
that includes having conversations with the lead engagement partner about the audit 
team’s quality controls, including the extent of partner review of audit workpapers; 
annually obtaining and reviewing a letter from the IPA describing the IPA firm’s 
internal quality‐control procedures; obtaining the results of the IPA firm’s latest peer 
and internal quality assurance reviews; and the existence and nature of any significant 

 
                                                                                         37 

                              Amtrak Office of Inspector General
                               Annual Financial Statement Audits:
            Observations for Improving Oversight of the Independent Public Accountant
                     Report No. OIG-A-2012-017, September 27, 2012


litigation or disciplinary actions against the IPA firm or members of the engagement 
team.  

D. Preapprove additional audit fees and non‐audit services provided by the IPA.  
Consistent with best practices, the Audit and Finance Committee was actively involved 
in approving additional audit fees for the FY 2011 audits by asking management to 
recommend an equitable settlement amount for consideration and to explain its process 
to prevent additional billings in the future. 
Additionally, audit committee charters include a responsibility to preapprove all non‐
audit services to help ensure that the audit committee is made aware of all services 
provided by the IPA.  

E. Review and approve all significant related‐party transactions. 
Audit committee charters include a responsibility to review and approve the company’s 
significant related‐party transactions to ensure that all transactions are conducted in 
manner similar to an arm’s length transaction, in keeping with normal market 
conditions, and recorded and disclosed in compliance with generally accepted 
accounting principles. Having this responsibility in place helps ensure that potential 
risks in this area are identified and that significant risks are mitigated in a timely 
manner.  




 
                                                                                             38 

                               Amtrak Office of Inspector General
                                Annual Financial Statement Audits:
             Observations for Improving Oversight of the Independent Public Accountant
                      Report No. OIG-A-2012-017, September 27, 2012


                                          Appendix V


                      SOURCES OF BEST PRACTICES

Management Best Practices
(1)   CPA Audit Quality: A Framework for Procuring Audit Services, Government 
      Accountability Office, GAO/AFMD‐87‐34, August 18, 1987 
(2)   Request for Proposal for the Annual Financial Statement Audit, a guide prepared by 
      the Council of the Inspectors General on Integrity & Efficiency  
(3)   How to Avoid a Substandard Audit: Suggestions for Procuring an Audit, National 
      Intergovernmental Audit Forum, May 1988 
(4)   Selecting an External Auditor, Guide for Making a Sound Decision, Mid‐America 
      Intergovernmental Audit Forum, May 2007 
(5)   AICPA Audit Committee Toolkit: Government Organizations, 2nd Edition, American 
      Institute of Certified Public Accountants 
(6)   Effective Audit Committees in the Ever Changing Marketplace, BDO Ac’sense; 2010 
(7)   Obtaining Quality Employee Benefit Plan Audit Services: The Request for Proposal and 
      Auditor Evaluation Process, AICPA Employee Benefit Plan Audit Quality Center 
(8)   Examples of RFP solicitation documents prepared and used by other federal 
      Offices of Inspectors General 
(9)   Best Practices Guide for Coordinating the Preparation and Audit of the Federal Financial 
      Statements, issued by the Chief Financial Officers Council & President’s Council 
      on Integrity and Efficiency  
(10) Best Practices Procurement Manual, Federal Transit Administration, November 6, 
     2001 
(11) Federal Acquisition Regulation, Volume I, March 2005 
(12) A Guide to Best Practices for Contract Administration, Office of Management and 
     Budget, Office of Federal Procurement Policy, October 1994 



 
                                                                                         39 

                               Amtrak Office of Inspector General
                                Annual Financial Statement Audits:
             Observations for Improving Oversight of the Independent Public Accountant
                      Report No. OIG-A-2012-017, September 27, 2012


(13) Purchasing Manual: Chapter 6 Contract Administration, Issue 3, United States Postal 
     Service, December 25, 2003  
(14) Best Practices for Multiple Award Task and Delivery Order Contracting, Office of 
     Management and Budget, February 19, 1999 
(15) Harmon, Kathleen; Stephan, Bruce. CDR. 01, Claims Avoidance Techniques—Best 
     Practices for Contract Administration, AACE International Transactions, 
     ABI/INFORM, 2001 
(16) Contract Management: Improving Services Acquisitions, congressional testimony, 
     Government Accountability Office, GAO‐02‐179T, November 1, 2001 
(17) Policy Letter 93—Management Oversight of Service Contracting, Office of 
     Management and Budget, Office of Federal Procurement Policy, May 18, 1994 
(18) Contracting for Services, National State Auditors Association, 2003 
(19) Hinton, Russell, Best Practices in Government: Components of an Effective Contract 
     Monitoring System, State of Georgia Department of Audits and Accounts, July 2003 
(20) FDIC’s Contract Administration, FDIC OIG Report 06‐026, September 2006 
(21) Post‐award Contract Administration—Lessons Learned and Best Practices, Contract 
     Management, National Contract Management Association, July 2007 
(22) Contracting Officer’s Technical Representative (COTR) Training Blueprint, prepared 
     by Federal Acquisition Institute, Office of the Chief Acquisition Officer, General 
     Services Administration, September 2004 
(23) Lessons Learned from the FY 2005 Financial Statement Audit, Memorandum Report 
     2006‐10‐FA‐0023, Pension Benefit Guarantee Corporation, Office of Inspector 
     General, April 6, 2006 
(24) AU 380—SAS 114, The Auditors Communication With Those Charged With 
     Governance, American Institute of Certified Public Accountants, effective 
     December 15, 2006 
(25) Lessons Learned from the FY 2004 Financial Statement Audit, Memorandum Report 
     2007‐3‐FA‐00323, Pension Benefit Guarantee Corporation, Office of Inspector 
     General, March 30, 2007 
(26) Contracting Office Handbook, Army Sustainment Command, March 2009 


 
                                                                                              40 

                               Amtrak Office of Inspector General
                                Annual Financial Statement Audits:
             Observations for Improving Oversight of the Independent Public Accountant
                      Report No. OIG-A-2012-017, September 27, 2012


(27) Management Advisory Comments Identified in an Audit of the Consolidated Financial 
     Statement of the Year Ended September 30, 2011, Report 22‐12‐006‐13‐001, 
     Department of Labor, Office of Inspector General, March 29, 2012  
(28) Framework for Assessing the Acquisition Function at Federal Agencies, Government 
     Accountability Office, GAO‐05‐218G, September 2005 
(29) Guidelines for Preparation of Requests for Proposals, Georgia Department of Audits 
     and Accounts, 2009 
(30) Financial Audit Manual, Volume I, Section 650, Government Accountability Office 
     and President’s Council on Integrity and Efficiency, GAO‐08‐585G, July 2008 
(31) Guide to Federal Agenciesʹ Procurement of Audit Services from Independent Public 
     Accountants, Government Accountability Office, GAO‐AFMD‐12.19.3, April 1, 
     1991 
(32) Proposal Evaluation Guide, Tricare Management Activity, April 2009 
(33) Technical Evaluation Panel Members’ Responsibilities, a guide prepared by the 
      Council of the Inspectors General on Integrity & Efficiency 



Audit Committee Best Practices
(1)   AICPA Audit Committee Toolkit: Government Organizations, 2nd Edition, American ‐
      Institute of Certified Public Accountants; 
(2)   AICPA Audit Committee Toolkit: Private Companies, Audit Committee Effectiveness 
      Center, American Institute of Certified Public Accountants; 
(3)   Audit committee: Leading Practices and Trends. Ernst & Young LLP, February 2012; 
(4)   Audit Committee Resource Guide, Deloitte; 
(5)   14 Ways to Reduce External Audit Fees, Audit Director Roundtable, Corporate Executive 
      Board; 
(6)   Audit Committee Best Practices Handout, Raffa and Associates, Inc. Council on 
      Foundations Website; 
(7)   Obtaining Quality Employee Benefit Plan Audit Services: The Request for Proposal and 
      Auditor Evaluation Process, AICPA Employee Benefit Plan Audit Quality Center; 

 
                                                                                         41 

                               Amtrak Office of Inspector General
                                Annual Financial Statement Audits:
             Observations for Improving Oversight of the Independent Public Accountant
                      Report No. OIG-A-2012-017, September 27, 2012


(8)   Selecting An Auditor For Your Employee Benefit Plan, guidance developed by 
      Department of Labor’s Employee Benefits Security Administration; 
(9)   CPA Audit Quality: A Framework for Procuring Audit Services, Government 
      Accountability Office (GAO/AFMD‐87‐34, Aug. 18, 1987); and Effective Audit 
      Committees in the Ever Changing Marketplace, BDO Ac’sense. 
(10) AU 380—SAS 114, The Auditors Communication With Those Charged With 
     Governance, American Institute of Certified Public Accountants, effective 
     December 15, 2006 
 
 




 
                                                                                         42 

                           Amtrak Office of Inspector General
                            Annual Financial Statement Audits:
         Observations for Improving Oversight of the Independent Public Accountant
                  Report No. OIG-A-2012-017, September 27, 2012


                                     Appendix VI

     COMMENTS FROM AMTRAK’S CHAIRMAN, AUDIT AND
    FINANCE COMMITTEE, AMTRAK BOARD OF DIRECTORS
           AND ACTING CFO AND CONTROLLER




                                                                                      

 
                                                                                                      43 

                             Amtrak Office of Inspector General
                              Annual Financial Statement Audits:
           Observations for Improving Oversight of the Independent Public Accountant
                    Report No. OIG-A-2012-017, September 27, 2012

Page 2                                               




Recommendation 1:

The Committee, Amtrak Board of Directors should approve the guidance developed in response to
recommendation 5 as part of its role to oversee the external auditors. The Committee should ensure that
management periodically reviews the guidance and revises it, as necessary, to ensure the guidance is
consistent with current industry best practices.

Management Response:

The Committee agrees with the OIG’s recommendation. The Committee reviewed and approved the
guidance for procuring external independent audit services created by management in response to
recommendation 5. Additionally, the Committee will ensure that Management periodically reviews the
guidance and revises it as necessary to incorporate current industry best practices.



Recommendation 2:

The Committee, Amtrak Board of Directors should review and select for implementation, as appropriate,
the best practices presented in Appendix IV.

Management Response:

The Committee agrees with the OIG’s recommendation and has taken the appropriate action necessary to
review and implement the best practices identified within Appendices IV. Please refer to Attachment A.



Recommendation 3:

The Acting Chief Financial Officer should complete the implementation of the best practices suggestions
identified as Implementation in Progress in Appendices II and III.

Management Response:

Management agrees with the OIG’s recommendation and has taken or will take the appropriate action
necessary to implement the best practices identified within Appendices II and III. Please refer to
Attachment B.




 
                                                                                                          44 

                                Amtrak Office of Inspector General
                                 Annual Financial Statement Audits:
              Observations for Improving Oversight of the Independent Public Accountant
                       Report No. OIG-A-2012-017, September 27, 2012

    Page 3                                             




Recommendation 4:

The Acting Chief Financial Officer should provide more comprehensive training for the COTR and task
monitor to ensure they understand their role, responsibility, and authority for managing the technical
performance of a complex service contract.

Management Response:

Management agrees with the OIG’s recommendation. The Procurement and Materials Management
Department currently offers on a monthly basis a six (6) hour course entitled Procurement Process
Overview to various departments throughout Amtrak. As part of this training, portions are devoted to the
roles and responsibilities of the Contracting Agent's Technical Representative (“COTR” or Project
Manager). This course is intended as an overview of the COTR function thus Management concurs with
the recommendation to offer a more in depth training program that would provide the appropriate level of
attention to this vital role. Management is in the process of determining if this new program should be
offered in-house or if our needs are better served utilizing an outside concern that specializes in this type
of education. By September 30, 2012, a decision on how to offer this new program will be made by the
Deputy Logistics Officer – Procurement.



Recommendation 5:

The Acting Chief Financial Officer should develop guidance for the IPA procurement that addresses the
unique requirements for procuring external independent audit services. The guidelines should incorporate
best practices for preparing solicitation documents, establishing selection criteria, performing proposal
evaluations and analyzing audit fees. The guidance should also describe management’s process for
periodically reviewing the guidance for administering the contract and facilitating the audit.

Management’s Response:

Management agrees with the OIG’s recommendation. The Director – Procurement Services and Senior
Director – Internal Controls / Audit jointly created specific guidelines which incorporate best practices
for preparing solicitation documents, establishing selection criteria, performing proposal evaluations, and
analyzing audit fees that will be utilized for IPA services. These guidelines were presented to the
Committee for their review and approval.




 
                                                                                                                                                                45 

                                                            Amtrak Office of Inspector General
                                                             Annual Financial Statement Audits:
                                          Observations for Improving Oversight of the Independent Public Accountant
                                                   Report No. OIG-A-2012-017, September 27, 2012

                                                                               
    Audit and Finance Committee Action Plan to Address OIG Recommendations                                                                     Attachment A
    Observations for Improving Oversight of Independent Public Accountant
     Performing the Annual Financial Statement Audits

                                Recommendation                                                                       Response
     1   Audit committees use a comprehensive charter matrix to ensure                  The Committee utilizes a comprehensive charter matrix which is
         that they meet all responsibilities and duties outlined in its                 updated quarterly by the CFO and helps to ensure that the
         committee charter.                                                             Committee is meeting all of the responsibilities and duties outlined
                                                                                        in the Committee's charter.

     2   Audit committee charters include a responsibility to oversee the               The Committee oversaw the 2012 RFP process and specifically
         IPA procurement.                                                               reviewed the Statement of Work, reviewed the procurement
                                                                                        schedule outlining dates and deliverables, monitored and
                                                                                        remained apprised of the RFP process, reviewed management's
                                                                                        technical scoring, approved the selection of the IPA, and
                                                                                        recommended to the full Board the approval of the IPA selected.

     3   Audit committees benchmark audit fees against those of other                   Management benchmarked the audit fees against those of other
         comparable entities.                                                           comparable entities and provided this information to the
                                                                                        Committee as part of the 2012 RFP process.

     4   Audit committees establish a direct relationship with the IPA                  Prior to the approval of the 2012 IPA contract, the Chairman of the
         to meet its oversight responsibilities.                                        Committee met with the signing partner of the IPA to establish
                                                                                        a direct relationship.

     5   Audit committees review a written independence statement                       This best practice recommendation is incorporated into the Audit
         from the IPA to ensure IPA independence.                                       Committee Charter dated March 17, 2011, as item 2. In the past,
                                                                                        IPAs have cited their independence during Board of Director
                                                                                        meetings. Additionally, this information has usually been included in
                                                                                        the IPA's presentation materials.

     6   Audit committees review the audit scope and plan with the IPA,                 This best practice recommendation is incorporated into the Audit
         management, and the OIG to ensure completeness of                              Committee Charter dated March 17, 2011, as item 3. In the past, the
         coverage.                                                                      Committee (and usually the Board of Directors) reviewed the audit
                                                                                        scope and plan with the IPA, management and the OIG. The
                                                                                        Committee (and specifically, the Board of Directors) will
                                                                                        continue this practice.


 
                                                                                                                                                             46 

                                                             Amtrak Office of Inspector General
                                                              Annual Financial Statement Audits:
                                           Observations for Improving Oversight of the Independent Public Accountant
                                                    Report No. OIG-A-2012-017, September 27, 2012

                                                                                
    Audit and Finance Committee Action Plan to Address OIG Recommendations                                                                    Attachment A
    Observations for Improving Oversight of Independent Public Accountant
     Performing the Annual Financial Statement Audits

                                Recommendation                                                                          Response
     7   Audit committees approve major changes in significant                           This best practice recommendation is incorporated into the Audit
         accounting principles and their application in financial reports.               Committee Charter dated March 17, 2011, as item 17. The
                                                                                         Committee will approve major changes in significant accounting
                                                                                         principles and their application in financial reports.

     8   Audit committees review all audit reports issued by the IPA                     This best practice recommendation is incorporated into the Audit
         prior to approving their release to the public, government                      Committee Charter dated March 17, 2011, as item 7. The
         agencies, or other third parties.                                               Committee will review and approve the audit reports issued by the
                                                                                         IPA associated with the consolidated financial statement audit
                                                                                         (GAAS and GAGAS reports) and the Single Audit compliance
                                                                                         report prior to their release.

     9   Audit committees receive letters from the IPA regarding                         In the past, the Committee has received required communications
         matters required to be discussed by current auditing standards                  in written form in accordance with Statement on Auditing
         upon completion of its audits.                                                  Standards (SAS) 114. In FY11, this information was provided as
                                                                                         part of the Board of Director presentation materials. Prior to
                                                                                         FY11, a formal communication was presented to the Committee.
                                                                                         The Committee anticipates obtaining a SAS 114 letter from the
                                                                                         current IPA.
    10   Audit committees review all material written communications                     The Committee will review all material written communications
         between the IPA and management.                                                 between the IPA and management. Material written
                                                                                         communications are considered to include: In-house legal
                                                                                         counsel letter detailing significant legal cases, management
                                                                                         representation letter, and SAS 115 detailing material and
                                                                                         significant control deficiencies.
    11   Audit committees assess the steps management has taken or                       This best practice recommendation is incorporated into the Audit
         proposes to take to minimize significant financial risks and                    Committee Charter dated March 17, 2011, as item 8. The
         periodically reviews the extent to which management has                         Committee will continue to review management's action plans to
         implemented steps.                                                              address material and significant control deficiencies.




 
                                                                                                                                                               47 

                                                             Amtrak Office of Inspector General
                                                              Annual Financial Statement Audits:
                                           Observations for Improving Oversight of the Independent Public Accountant
                                                    Report No. OIG-A-2012-017, September 27, 2012

                                                                                
    Audit and Finance Committee Action Plan to Address OIG Recommendations                                                                      Attachment A
    Observations for Improving Oversight of Independent Public Accountant
     Performing the Annual Financial Statement Audits

                              Recommendation                                                                           Response
    12   Audit committees oversee employee benefit plan audits.                          This best practice recommendation is incorporated into the Audit
                                                                                         Committee Charter dated March 17, 2011, as item 24. In the
                                                                                         past, the IPA has presented to the Committee (and specifically
                                                                                         the Board of Directors) the results of employee benefit plan
                                                                                         audits. The Committee will continue to obtain presentations (e.g.,
                                                                                         results) from the IPA on employee benefit plan audits.


    13   Include the following responsibilities and duties in the audit                  The first three best practice recommendations fall within the
         committee charter:                                                              Committee's overall purpose to oversee the Corporation's audits
         --Formally review and evaluate the IPA's performance (post-                     of its financial statements. The Committee evaluated the IPA's
         audit quality evaluation) on an annual basis.                                   performance at the completion of the fiscal year 2011 audit.
         --Review the experience and qualifications of the lead partner                  Additionally, the Audit Committee Chairman met with the lead
         each year.                                                                      partner of the newly selected IPA prior to approval of the IPA;
         --Obtain a written statement of the IPA's quality control policies              additional reviews will occur with a change in leader or change in
         and procedures to ensure that they have an adequate quality                     circumstance. Finally, the technical evaluation committee
         control process in place to meet professional and regulatory                    reviewed the IPA's quality control policies and procedures during
         requirements, as well as client expectations.                                   the RFP process and in the past the IPA presented this
         --Preapprove additional audit fees and non-audit services                       information at the conclusion of their audit during the December
         provided by the IPA.                                                            Board meeting.
         --Review and approve all significant related-party transactions.
                                                                                         The best practice recommendation for the pre-approval of fees to
                                                                                         be paid to the IPA is incorporated into the Audit Committee
                                                                                         Charter dated March 17, 2011, as item 1.

                                                                                         The best practice recommendation for the review and approval of
                                                                                         all significant related-party transactions is incorporated into the
                                                                                         Audit Committee Charter dated March 17, 2011, as item 25 to
                                                                                         review and approva signficant financial transactions of the
                                                                                         Corporation.




 
                                                                                                                                                                          48 

                                                             Amtrak Office of Inspector General
                                                              Annual Financial Statement Audits:
                                           Observations for Improving Oversight of the Independent Public Accountant
                                                    Report No. OIG-A-2012-017, September 27, 2012

                                                                                        
    Management Action Plan to Address OIG Recommendations                                                                                                Attachment B
    Observations for Improving Oversight of Independent Public Accountant
     Performing the Annual Financial Statement Audits

                                                                                                                                                          Estimated
                               Recommendation                                                                  Status                                   Completion Date
     1   Pre-screen potential bidders to determine those that possess         During the 2012 RFP process, potential bidders were pre-screened             Complete
         basic or mandatory qualifications. Only evaluate bidders who         to determine that the bidders possessed basic and mandatory
         meet minimum mandatory qualification required for an                 qualifications. Basic qualifications were listed in the Instructions to
         independent auditor. The extent to which entities prequalify         Offerors. Please see procurement file for documentation that all
         bidders should be consistent with the size of their audit            bidders met the basic and/or mandatory qualifications.
         engagements.

     2   Develop written definitions for each technical evaluation criteria   Technical evaluation criteria was broken down into smaller, more             Complete
         and guidelines for how to apply each criterion. For example,         clarifying criteria allowing the technical evaluation committee to
         define what is meant by “Experience” and what specifically           understand what was meant by "experience" and other general
         should members of the technical evaluation committee looking         categories. Prior to receipt of the proposals, the committee
         for when applying the “Experience” criterion.                        discussed the technical evaluation criteria and the guidelines for
                                                                              how to apply each criterion. The scoring criteria was provided to the
                                                                              OIG on 05/02/12.

     3   Provide technical evaluation committee members with                  A technical evaluation committee kick-off meeting was held on                Complete
         guidance on how to perform the evaluation and how to apply           03/19/12. Guidance on how to perform the evaluation and
         each technical criteria when reviewing proposals, e.g.,              information on the technical evaluation criteria was discussed.
                                                                              Minutes of the kick-off meeting were provided to the OIG on
         --Initial evaluations should be based on the bidders’ proposals      05/04/12.
         as submitted;
         --As you evaluate the proposals, make a list of strengths and        Documentation supporting each technical evaluation committee
         weaknesses for each to support its technical rating.                 member's rating was documented and is included in the
                                                                              procurement file.

     4   The most qualified bidders should be asked to make oral              All qualified bidders were asked to make oral presentations. Oral            Complete
         presentations to the technical evaluation committee and/or the       presentations were held on 05/14/12 and 05/15/12. All technical
         audit committee. The oral technical proposal should be               evaluation committee members were present.
         adequate to demonstrate how the bidder proposes to comply
         with the requirements of the solicitation, along with full
         techniques and procedures to be followed.


 
                                                                                                                                                                   49 

                                                            Amtrak Office of Inspector General
                                                             Annual Financial Statement Audits:
                                          Observations for Improving Oversight of the Independent Public Accountant
                                                   Report No. OIG-A-2012-017, September 27, 2012

                                                                                     
    Management Action Plan to Address OIG Recommendations                                                                                         Attachment B
    Observations for Improving Oversight of Independent Public Accountant
     Performing the Annual Financial Statement Audits

                                                                                                                                                   Estimated
                              Recommendation                                                              Status                                 Completion Date
     5   Management should perform a periodic analysis of audit fees       Management developed a listing of comparable company audit fees          Complete
         that benchmark the Company’s audit fees against other             and analyzed these fees against the fees in the prior year and the
         companies of comparable size, complexity, and risk. At a          fees within the proposals. This information was provided to the OIG
         minimum, management should analyze the trends in audit fees       on 06/25/12.
         and understand the cause of fluctuations and apply them to the
         Company’s situation.



     6   GAO recommends that entities formulate detailed procurement       The OIG expanded this best practice and included it separately in        Complete
         guidance as an important vehicle to improving audit quality.      the Draft Report as recommendation 5. Please see management's
                                                                           response letter for actions to be taken.

     7   Convening periodic meetings with top level contractor officials   During the FY11 audit, periodic meetings were held with IPA              Complete
         and user department officials to discuss the contractor's         partners and Amtrak's CFO, Controller, and Senior Director of
         performance helps the COTR ensure that contract terms and         Internal Controls / Audit to discuss performance. Additionally,
         conditions are being adhered to.                                  during the FY11 audit, the COTR and task monitor spoke with all
                                                                           user departments including assistant controllers on a recurring
                                                                           and/or weekly basis to discuss progress of the audit in addition to
                                                                           speaking with the IPA's senior managers. Additionally, the
                                                                           Controller's department spoke about audit progress during
                                                                           their weekly Controller's meetings. These periodic meetings will
                                                                           continue in FY12.




 
                                                                                                                                                                     50 

                                                             Amtrak Office of Inspector General
                                                              Annual Financial Statement Audits:
                                           Observations for Improving Oversight of the Independent Public Accountant
                                                    Report No. OIG-A-2012-017, September 27, 2012

                                                                                      
    Management Action Plan to Address OIG Recommendations                                                                                          Attachment B
    Observations for Improving Oversight of Independent Public Accountant
     Performing the Annual Financial Statement Audits

                                                                                                                                                     Estimated
                                Recommendation                                                             Status                                 Completion Date
     8   The COTR should ensure that the appropriate audit and               Key personnel have been established in the contract and thoroughly    As needed; no
         company personnel communicate when changes in key                   discussed during the RFP and contracting process. The COTR will         personnel
         personnel are expected at any time during the audit. Similarly,     monitor key personnel. Weekly status meetings will provide the        changes have
         when there have been changes to CFO staff or other critical         forum to discuss staff changes.                                       been identified
         entity staff, the COTR should notify the contractor and arrange
         a meeting, if needed, to ensure that all parties are aware of the                                                                           Complete
         change.

         When changes in key personnel occur, either at the company
         or the contractor (or subcontractor), a more-than-the-usual
         level of attention should be given to the planning stage and the
         overall communication strategy.

         This includes communicating staff changes early enough to
         ensure contractor compliance with an entity’s performance and
         security requirements.

     9   The CO responsible for consenting to changes in subcontracts        Once the contractor brings changes to the attention of either the     As needed; no
         shall review the contractor’s notification and supporting data to   COTR or CO (or the COTR determines that changes to the contract        subcontract
         ensure that the contractor has a sound basis for selecting and      are likely or needed), both the COTR and CO will review and           changes have
         determining the responsibility of the particular subcontractor,     discuss contract changes together and with the contractor. Current    been identified
         the proposed subcontract is appropriate for the risks involved,     policy and sound business judgment will be utilized.
         and is consistent with current policy and sound business                                                                                    Complete
         judgment. The COTR should assist the contracting officer in
         his/her evaluation, as requested.




 
                                                                                                                                                                  51 

                                                           Amtrak Office of Inspector General
                                                            Annual Financial Statement Audits:
                                         Observations for Improving Oversight of the Independent Public Accountant
                                                  Report No. OIG-A-2012-017, September 27, 2012

                                                                                    
    Management Action Plan to Address OIG Recommendations                                                                                        Attachment B
    Observations for Improving Oversight of Independent Public Accountant
     Performing the Annual Financial Statement Audits

                                                                                                                                                  Estimated
                                Recommendation                                                           Status                                 Completion Date
    10   The COTR and the CO should develop a clear understanding          The COTR and CO have developed a working relationship /                 Complete
         of what is expected of the COTR and how the COTR and the          partnership since the RFP process began for the external audit and
         CO will work together to monitor performance of the contract. A   the COTR's attendance at COTR training. Their understanding of
         partnership between the COTR and the CO can be useful in          what is expected of the COTR and how the COTR and CO will work
         establishing and achieving contract objectives because these      together to monitor performance of the contract was documented
         two officials are responsible for ensuring that the contracting   and is included in the COTR's file.
         process is successful.

         This communication and understanding between the COTR
         and CO should be documented in the COTR’s file.

    11   The COTR should establish and maintain a current and              The Statement of Work clearly defines specific milestones and what      Complete
         separate record-keeping system that documents job progress        is expected (by when) throughout the audit. If issues arise or if
         and problems as they occur. Files should be organized so that     milestones are missed, these items will be dealt with immediately
         someone could reconstruct and understand the history of the       between the contractor, COTR, and CO (and CFO as appropriate).
         contract in the absence of the COTR. Contract files should hold   An annual job progress review will be documented at the
         all the information necessary to know what was expected and       completion of each annual audit.
         received under the contract. This file must be available for
         review by the CO, IG, GAO, or any other official authorized by
         the CO.




 
                                                                                                                                                                     52 

                                                            Amtrak Office of Inspector General
                                                             Annual Financial Statement Audits:
                                          Observations for Improving Oversight of the Independent Public Accountant
                                                   Report No. OIG-A-2012-017, September 27, 2012

                                                                                     
    Management Action Plan to Address OIG Recommendations                                                                                           Attachment B
    Observations for Improving Oversight of Independent Public Accountant
     Performing the Annual Financial Statement Audits

                                                                                                                                                     Estimated
                                Recommendation                                                            Status                                   Completion Date
    12   Management should ensure that company personnel assigned          Both the COTR and task monitor previously worked for public                09/30/12
         to manage and oversee the contract administration function        accounting firms and specifically worked in the audit practice; both
         (e.g., the COTR and task monitor), particularly for highly        are trained and experienced.
         specialized or technical services, are trained and experienced.
                                                                           Both the COTR and task monitor are familiar with Amtrak's General
         Many organizations have a mandatory COTR training program.        Policy 1.3.3, Ethical Conduct and Conflict of Interest Policy.
         Even in those that do not, their COTRs still attend a basic       Additionally, the COTR is a licensed CPA in three states and the
         COTR course; procurement ethics training; refresher COTR          District of Columbia.
         training; and procurement ethics and integrity training. COTRs
         are encouraged to keep pace with changes in procurement by        Both the COTR and task monitor attended specific and tailored
         completing a minimum of eight additional hours of contract        COTR training explicitly applicable to the external audit contract on
         administration training every 3 years, preferably through a       02/08/12. The training was taught by the CO and the Assistant
         refresher COTR training course. Courses in service contracting    Deputy of Procurement. Management understands that the OIG
         and preparing statements of work are very helpful for COTRs       disagrees that the COTR training attended was sufficient; as a
         who handle complex and service contracts; this helps them in      result, additional trainings will be investigated. Within the Draft
         the preparation of the contract administration plan.              Report, the OIG included this best practice separately as
                                                                           recommendation 4. Please see management's response letter for
                                                                           actions to be taken.




 
                                                                                                                                                                       53 

                                                             Amtrak Office of Inspector General
                                                              Annual Financial Statement Audits:
                                           Observations for Improving Oversight of the Independent Public Accountant
                                                    Report No. OIG-A-2012-017, September 27, 2012

                                                                                       
    Management Action Plan to Address OIG Recommendations                                                                                             Attachment B
    Observations for Improving Oversight of Independent Public Accountant
     Performing the Annual Financial Statement Audits

                                                                                                                                                       Estimated
                                 Recommendation                                                                Status                                Completion Date
    13   The COTR should develop a contract administration plan in            The detailed Statement of Work is a performance management task           Complete
         order to mitigate the risks associated with service-type             list which details expectations, deliverables, dates, and deadlines.
         contracts. The CAP should describe the methodology for               A separate contract administration plan will not be developed as
         ensuring performance of the statement of work and adherence          management believes the Statement of Work provides a sufficient
         to contract terms. This saves time and resources because the         outline to ensure performance and adherence to contract terms.
         COTR is not monitoring the mundane, routine portions of the
         contract; instead the COTR is focusing on the major
         deliverables of the contract.

         The COTR must determine what level of oversight is necessary
         to ensure that the contractor makes satisfactory progress
         toward the successful completion of the contract.

         The CAP may be a simple view of planned and completed
         activities and can be utilized throughout the contract period as
         a status report. It should detail the methods that the agency will
         use to monitor the contractor, or it could be more complex.

         A copy of the CAP should be provided to the CO and to any
         other member of the oversight team who might benefit. The
         CAP should be updated during performance to reflect any
         changes to the contract and be redistributed. The COTR may
         supplement the elements of the monitoring plan, as needed.

         The GAO framework identifies the use of contract monitoring
         plans or risk-based strategies for tracking contractor
         performance as an indicator that entities are effectively
         monitoring and providing oversight to contractors.




 
                                                                                                                                                                     54 

                                                            Amtrak Office of Inspector General
                                                             Annual Financial Statement Audits:
                                          Observations for Improving Oversight of the Independent Public Accountant
                                                   Report No. OIG-A-2012-017, September 27, 2012

                                                                                     
    Management Action Plan to Address OIG Recommendations                                                                                           Attachment B
    Observations for Improving Oversight of Independent Public Accountant
     Performing the Annual Financial Statement Audits

                                                                                                                                                     Estimated
                                Recommendation                                                               Status                                Completion Date
    14   One auditor appointed by the contractor and a representative       Due to the size of the Amtrak audit, thousands of requests are            Complete
         from the company should be the points of contact and held          made to numerous business owners throughout Amtrak. If one
         responsible for coordinating the PBC requests to and               auditor or audit liaison is responsible for all PBC requests and
         responses from the company. These representatives should           subsequent responses, bottlenecks and inefficiencies are created.
         meet at least weekly to review the PBC list together. The          Auditors and business owners must be able to communicate without
         purpose of these meetings is to identify changes in or deletions   a "middle man". The COTR and task monitor are copied on all e-
         from the PBC list, discuss any delays or accelerations in          mail correspondence and attend meetings as applicable to ensure
         providing information, clarify any requests, and discuss PBC       adequate and timely responses are provided to the auditor.
         items coming due within the next 2 weeks. These
         representatives should be informed of all new PBC requests,        During the FY11 audit, the auditor prepared an updated PBC list
         including follow-up requests.                                      weekly. The COTR and task monitor reviewed the PBC list and
                                                                            provided comments to the contractor noting incomplete or
         Key outstanding PBC items overdue from company personnel           inaccurate items prior to the weekly status meeting. Each week
         should be discussed at the weekly status meetings. This allows     during the status meeting, the PBC list was discussed by all
         for discussion and resolution of problems before significant       relevant business owners involved in the audit. During this meeting,
         delays occur. Overdue PBC items should also be elevated to         PBC delays, clarifications, and overdue PBCs were discussed. The
         the CFO for explanation and a revised due date.                    CFO attended most, if not all, weekly status meetings and the
                                                                            COTR additionally kept the CFO up-to-date through the audit.

                                                                            We anticipate continuing weekly meetings during the FY12 audit.

                                                                            The COTR and task monitor regularly discuss PBCs due within the
                                                                            next week or two with business owners ensuring delivery dates are
                                                                            reasonable; as appropriate, the auditor is informed of a revised
                                                                            dates of delivery.




 
                                                                                                                                                                   55 

                                                             Amtrak Office of Inspector General
                                                              Annual Financial Statement Audits:
                                           Observations for Improving Oversight of the Independent Public Accountant
                                                    Report No. OIG-A-2012-017, September 27, 2012

                                                                                     
    Management Action Plan to Address OIG Recommendations                                                                                         Attachment B
    Observations for Improving Oversight of Independent Public Accountant
     Performing the Annual Financial Statement Audits

                                                                                                                                                   Estimated
                                Recommendation                                                            Status                                 Completion Date
    15   Regular status meetings could be strengthened by developing        Weekly status meetings are a part of management's process, allow        Complete
         a structure that allows two-way communication between the          for two-way communication and are also included in section 5.2 of
         contractor and management. This structure provides                 the Statement of Work. These meetings allow the contractor to
         opportunities for feedback, facilitate reaching agreements, and    summarize progress to-date, discuss upcoming and overdue PBCs,
         eliminate surprises.                                               and provide information on audit issues. During these meetings,
                                                                            business owners and the COTR ask questions, discuss significant
         These meetings are a means for the contractor to provide           accounting and audit issues, and express concerns about audit
         information on audit issues, obstacles, and timelines; they also   progress. Additionally, the meetings allow the auditor to ask
         provided an opportunity for management to ask questions and        additional questions.
         express concerns. These meetings become more frequent as
         the financial statements are prepared and the audit draws to
         conclusion (e.g., weekly in the beginning and daily toward the
         end).




    16   Require the contractor to provide written notice of findings       Section 7.4 of the Statement of Work requires the contractor to         Complete
         (NFRs) during the audit so that management is made aware,          submit NFRs as they arise. Additionally, specific dates within the
         as soon as feasible, of the issues identified by the contractor.   Statement of Work have been clearly defined for the delivery of
         This process facilitates the resolution of any disagreements       draft and final management letter comments. The contractor will be
         with the facts or recommended corrective actions and allows        held to milestones and deliverables noted within the Statement of
         management time to understand the issues and determine             Work.
         whether the auditors had all relevant information.




 
                                                                                                                                                                  56 

                                                           Amtrak Office of Inspector General
                                                            Annual Financial Statement Audits:
                                         Observations for Improving Oversight of the Independent Public Accountant
                                                  Report No. OIG-A-2012-017, September 27, 2012

                                                                                   
    Management Action Plan to Address OIG Recommendations                                                                                        Attachment B
    Observations for Improving Oversight of Independent Public Accountant
     Performing the Annual Financial Statement Audits

                                                                                                                                                  Estimated
                                Recommendation                                                             Status                               Completion Date
    17   Following completion of the audit, representatives from the      Section 5.6 of the Statement of Work requires that a lessons-            Complete
         company, contractor, and management should hold a lessons-       learned meeting be held no later than January 31 of each year. The
         learned meeting to discuss how coordination may be further       contractor will be held to milestones and deliverables noted within
         improved and to highlight challenges for the next audit cycle.   the Statement of Work.
         This meeting should be conducted soon after the completion of
         the audit so that the past year’s experience and issues can be
         appropriately addressed.



 




 
                                                                                     57 

                           Amtrak Office of Inspector General
                            Annual Financial Statement Audits:
         Observations for Improving Oversight of the Independent Public Accountant
                  Report No. OIG-A-2012-017, September 27, 2012


                                     Appendix VII

                              ABBREVIATIONS

AICPA                American Institute of Certified Public Accountants 
CAP                  contract administration plan 
CFO                  chief financial officer 
CO                   contracting official 
COTR                 contracting official’s technical representative 
EBP                  employee benefit plan 
ERISA                Employee Retirement Income Security Act 
GAO                  Government Accountability Office 
IPA                  independent public accountant 
OIG                  Office of Inspector General 
PBC                  prepared by client 
RFP                  Request for Proposal—Instructions to Offerors 
SAS                  Statement on Auditing Standards 
SOW                  Statement of Work 




 
                                                                                           58 

                                 Amtrak Office of Inspector General
                                  Annual Financial Statement Audits:
               Observations for Improving Oversight of the Independent Public Accountant
                        Report No. OIG-A-2012-017, September 27, 2012


                                           Appendix VIII

                                   OIG TEAM MEMBERS
 

David R. Warren                Assistant Inspector General, Audits 
Edward Stulginsky              Senior Director, Governance 
Katherine X. Moore             Audit Manager, Auditor‐in‐Charge 
David Yoder                    Auditor 

Karen Ajayi                    Consultant 
Nicholas Wieroniey             Consultant 
Wilson Kayo                    Consultant 
John Davis                     Consultant 
Colin Carriere                 General Counsel 

Kathleen Ranowsky              Deputy General Counsel 

Michael P. Fruitman            Principal Communications Officer 
                                




 
                                                                                            59 

                              Amtrak Office of Inspector General
                               Annual Financial Statement Audits:
            Observations for Improving Oversight of the Independent Public Accountant
                     Report No. OIG-A-2012-017, September 27, 2012


           OIG MISSION AND CONTACT INFORMATION
Amtrak OIG’s Mission            The Amtrak OIG’s mission is to 
                                   conduct and supervise independent and objective 
                                    audits, inspections, evaluations, and investigations 
                                    relating to Amtrak programs and operations;  
                                   promote economy, effectiveness, and efficiency 
                                    within Amtrak; 
                                   prevent and detect fraud, waste, and abuse in 
                                    Amtrakʹs programs and operations; and  
                                   review and make recommendations regarding 
                                    existing and proposed legislation and regulations 
                                    relating to Amtrakʹs programs and operations. 
 
Obtaining Copies of OIG  Available at our website:  www.amtrakoig.gov. 
Reports and Testimony
 
To Report Fraud, Waste,  Report suspicious or illegal activities to the OIG Hotline 
and Abuse                (you can remain anonymous): 
 
                                Web:     www.amtrakoig.gov/hotline 
                                Phone:   800‐468‐5469 
 
Congressional and               E. Bret Coulson, Senior Director 
Public Affairs                  Congressional and Public Affairs 
                                Mail:       Amtrak OIG 
                                            10 G Street, N.E., 3W‐300 
                                            Washington, DC 20002 
                                Phone:   202‐906‐4134 
                                Email:      bret.coulson@amtrakoig.gov 
 
 


 
